<html>
<title> - GEOGRAPHICAL INFORMATION SYSTEMS POLICIES AND PROGRAMS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
         GEOGRAPHICAL INFORMATION SYSTEMS POLICIES AND PROGRAMS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 1999

                               __________

                           Serial No. 106-92

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2000

                               __________


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                Bonnie Heald, Director of Communications
                     Matthew Ebert, Policy Director
                     Faith Weiss, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 1999.....................................     1
Statement of:
    Bills, Terry, managing principal planner, Information 
      Services Department, Southern California Association of 
      Governments; Tom Sweet, Pennsylvania GIS Consortium; 
      Suzanne Hall, assistant county executive, Wayne County, MI; 
      Victoria Reinhardt, commissioner and chair, Ramsey County, 
      MN; Sue Cameron, commissioner and chair, Tillamook County, 
      OR; and Lawrence F. Ayers, Jr., project panel member, 
      National Academy of Public Administration..................    44
    Dangermond, Jack, president, Environmental Systems Research 
      Institute, Inc.; Jerry Miller, senior vice president and 
      chief information officer, Sears Roebuck & Co.; Bruce 
      Cahan, president, Urban Logic, Inc.; and Jack Pellicci, 
      vice president, Global Public Sector, Oracle...............   169
    Geringer, Jim, Governor of Wyoming; and Bruce Babbitt, 
      Secretary of the Interior..................................    15
    Hooley, Darlene, a Representative in Congress from the State 
      of Oregon..................................................    44
Letters, statements, et cetera, submitted for the record by:
    Ayers, Lawrence F., Jr., project panel member, National 
      Academy of Public Administration, prepared statement of....   147
    Babbitt, Bruce, Secretary of the Interior, prepared statement 
      of.........................................................    34
    Bills, Terry, managing principal planner, Information 
      Services Department, Southern California Association of 
      Governments, prepared statement of.........................    47
    Cahan, Bruce, president, Urban Logic, Inc., prepared 
      statement of...............................................   187
    Cameron, Sue, commissioner and chair, Tillamook County, OR, 
      prepared statement of......................................   138
    Dangermond, Jack, president, Environmental Systems Research 
      Institute, Inc., prepared statement of.....................   172
    Geringer, Jim, Governor of Wyoming, prepared statement of....    20
    Hall, Suzanne, assistant county executive, Wayne County, MI, 
      prepared statement of......................................    69
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Kanjorski, Hon. Paul E., a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........    11
    Miller, Jerry, senior vice president and chief information 
      officer, Sears Roebuck & Co., prepared statement of........   179
    Reinhardt, Victoria, commissioner and chair, Ramsey County, 
      MN, prepared statement of..................................    79
    Sweet, Tom, Pennsylvania GIS Consortium, prepared statement 
      of.........................................................    53
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     6


         GEOGRAPHICAL INFORMATION SYSTEMS POLICIES AND PROGRAMS

                              ----------                              


                        WEDNESDAY, JUNE 9, 1999

                      House of Representatives,
            Subcommittee on Government Management,
                      Information, and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:02 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Turner, Maloney, and 
Kanjorski.
    Staff present: J. Russell George, staff director and chief 
counsel; Matthew Ebert, policy advisor; Bonnie Heald, director 
of communications; Grant Newman, staff assistant; Paul Wicker 
and Justin Schlueter, interns; Faith Weiss, minority counsel, 
and Early Green, minority staff assistant.
    Mr. Horn. A quorum being present, the Subcommittee on 
Government Management, Information, and Technology will come to 
order.
    We are here today to review the Federal Government's 
efforts toward standardizing and sharing Geographic Information 
Systems with other government entities and with the private 
sector.
    Dramatic advances in computer technology and the Internet 
allow access to geographic information that was once very 
limited to topographic lines, reproduced on paper maps. Now, 
precise data can be displayed on personal computers, allowing 
users to tailor a vast array of information to their needs.
    Today, students can use Geographic Information Systems to 
plot maps on their own classroom computers. Families who are 
moving to a new city can use this technology to locate schools, 
ATM machines, or examine the landscape of their new 
neighborhoods. Farmers can rotate their crops using government 
analyses of the soil. Federal, county, and city governments can 
analyze flood plains, population density, and natural 
resources. Private businesses can provide more efficient 
delivery services.
    The collection of these geographic information is a multi-
billion dollar business in the United States. Yet, sharing this 
information is often more difficult because many software 
applications still cannot communicate with others, requiring 
public and private organizations to collect duplicate 
information on the same region.
    In addition, there has been no commitment among governments 
and the private sector to share this information. Data 
collected by one local government may not be available to the 
Federal and State government planners.
    Similarly, Federal data bases are not always available to 
State and local government planners, or to the private sector. 
Billions of dollars are being unnecessarily spent on this 
duplication.
    We will discuss how Federal, State, regional, and municipal 
governments are using their Geographic Information Systems to 
manage programs and services. How is this information being 
used by the private sector is certainly another concern for all 
of us. We will examine how the Federal Government can help 
improve the compatibility of these networks and data bases.
    In addition, we will discuss how the Federal Government 
might assist States, regions, municipalities, and the private 
sector in forming partnerships to provide Geographic 
Information Systems in a cost effective manner. We will hear 
from a number of well-known witnesses and leading experts in 
the geographic data industry. Governor Jim Geringer of Wyoming 
will discuss how Wyoming uses its Geographic Information 
Systems to manage programs. Secretary of the Interior Bruce 
Babbitt also serves as chairman of the Federal Geographic Data 
Committee, and we are delighted to have him with us today. This 
interagency committee promotes the coordinated use, sharing, 
and dissemination of geographic information on a national 
basis. We hope to learn more about the committee's progress in 
this effort.
    The second panel includes county and city officials. These 
witnesses have used Geographic Information Systems to assist 
their local and regional communities in making critical 
management decisions on programs and activities.
    Witnesses on the third panel represent the private sector. 
Their companies use Geographic Information Systems to increase 
productivity, reduce operational expenses, and create new 
products and services.
    We look forward to today's testimony and welcome each of 
our witnesses. I now yield the ranking member, Mr. Turner of 
Texas, for an opening statement.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.001
    
    [GRAPHIC] [TIFF OMITTED] T3008.002
    
    Mr. Turner. Thank you, Mr. Chairman. I would like to start 
by recognizing Mr. Kanjorski's hard work and his leadership on 
issues relating to Geographic Information Systems, including 
his work on the steering committee for the 1999 National 
Geodata Forum, which I understand is just concluding.
    I want to thank also Chairman Horn for his support in 
conducting this hearing, and for the bipartisan manner in which 
he always conducts hearings of this committee. I must say, as a 
ranking Democrat, it is a pleasure to be on a committee where 
we have a chair who takes bipartisanship seriously.
    I want to welcome Secretary Babbitt today. The Secretary of 
the Interior has been very involved in this issue, and we look 
forward to hearing your insights, Mr. Secretary. And I also 
want to welcome Governor Geringer from Wyoming. We appreciate 
you being here with us today. And Mr. Chairman, I would like to 
yield the balance of my time to Mr. Kanjorski in acknowledgment 
of his leadership and his hard work on this important issue.
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.003
    
    [GRAPHIC] [TIFF OMITTED] T3008.004
    
    [GRAPHIC] [TIFF OMITTED] T3008.005
    
    Mr. Horn. Without objection, we are delighted to have our 
colleague from Pennsylvania, and we thank him for all the help 
and solid information he has provided with reference to this 
topic.
    Mr. Kanjorski. Mr. Chairman, I want to thank Mr. Turner, 
our ranking member, and recognize your bipartisan approach in 
examining this and other technologies. I believe this is the 
first time a congressional committee will devote its entire 
time to the new technology used in GIS activity and hope to 
have a record created today--by governmental officials from the 
Cabinet office of Secretary Babbitt on down through the 
Governor of Wyoming, and then interested specialists from 
professionals in the field, and finally, private industry--that 
will give us a picture that I think is both exciting and 
enlightening to the American people.
    This is the dawning of a new age. It is pleasureable to be 
a part of it, although I concede I do not understand it. And I 
fear that some of my friends in that field think I do, and if I 
do, and what I know the rest of the Congress knows, we have got 
a learning process, an educational process, that we have to go 
through for our fellow members and for ourselves.
    We have a key witness here in Secretary Babbitt--he 
certainly has taken in the Department of Interior the 
responsibility of establishing the organization of the Federal 
Geographic Data Committee under the national spatial data 
infrastructure. He has worked very closely with the vision and 
leadership of Vice President Gore; and they have really moved 
this tool to another level in reinventing government and 
community livability. I think that we will hear from their 
testimony today that setting standards and bringing together 
all levels of government and the private sector are not only 
important, but are essential, if this great tool is to be 
properly utilized, not only in the United States, but 
ultimately globally.
    We have an opportunity here in the Federal Government to 
actually take a lot of information from the localities and from 
the other elements of government in our society and learn and 
interact in partnership with them. And then we have, in a 
partisan nature, the Governor of Wyoming. I had the pleasure of 
meeting with him today. He has a leading role in GIS 
implementation in Wyoming. He has taken this issue to the 
Western Governors' Conference and the National Governors' 
Association. I think it is so important that those of us in 
public life, regardless of what level, take time out from our 
normal chores of being politicians to be thinkers and 
innovators. And certainly, the Governor has been that.
    I believe that GIS and spatial data will be driving forces 
in our rapidly growing knowledge-based economy and provide for 
the capacity to have electronic democracy. As I said in my 
speech on Monday at the beginning of the Forum, it used to be 
said that a picture is worth 1,000 words. With GIS, it will be 
said that an image is worth 10,000 words. This is going to give 
us an incredible capacity to identify, address, and rectify 
complex problems in all sorts of areas of our society that we 
have never had before.
    Although I have prepared remarks, I just want to give you 
an example, Mr. Chairman, of how important it is to a State 
like Pennsylvania and to my particular district and the 
surrounding districts around me, which make up part of the 
anthracite coal region. We have had devastation in processes 
for 150 years. We have degraded water, degraded land, and a 
depressed economy. Never have we had the tool or the 
opportunity to view holistically 2,000 or 4,000 square miles of 
area with the incredible amounts of information that is 
interrelated in that area that is necessary if you are really 
to do a holistic approach to environmental cleanup, economic 
development, infrastructure repair, or development. It is this 
type of system that we are using in my area of Pennsylvania 
now, with the hope that we will create a model for the rest of 
the Nation.
    With all that said and done, and all the time and money 
that will be spent on these things, there are certain basic 
tools that the forum pointed out to me over the past 3 days and 
that I have observed over the last several months of my 
involvement in a deep way in this thing. As the government 
participates, in the Federal Government we must use our 
capacity to release data at the lowest levels of government 
which is generally more accurate and is very important to be 
part of this system. Whether we do it by the carrot or the 
stick it is essential that we create an atmosphere in this 
country that this data is available to everyone.
    Second, we have to create standards for this data and 
certify the validity of the data because it will be piled layer 
on layer, and eventually no one will remember where it really 
came from or who has tested that data.
    Finally, those areas of the country, such as mine, that are 
broken into many subdivisions, the Commonwealth of Pennsylvania 
has 2,500 municipalities, 90 percent of which are under 3,500 
population will be left out of this technology if we do not 
encourage locally independent, regionally coordinated, multi-
purpose GIS. Organizations must come together and gather 
hundreds of communities together so that they can participate 
or they will become the equivalent of our Third World.
    Finally, when all this is said and done, I hope the 
government can participate in a big way, either with a 
foundation or non-profit organization or with the multi-layers 
of government and the private sector, in developing a concept 
of an institute for best practices. This gives us a real 
opportunity to reinvent the wheel once and not require so many 
people to reinvent it again. The efficiencies and the 
effectiveness, or as a tool for democracy and government and 
planning, will only give, as one of the Secretary's main 
assistants said today, it will actually bring into place Thomas 
Jefferson's dream of an enlightened citizenry and democratic 
society.
    So, GIS is a tool. It is a medicine. It may be not a cure-
all, but the nearest we are going to have to it in our 
lifetime. I hope this committee and this Congress pay close 
attention to the testimony we are about to hear today. Thank 
you, Mr. Chairman.
    [The prepared statement of Hon. Paul E. Kanjorski follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.006
    
    [GRAPHIC] [TIFF OMITTED] T3008.007
    
    [GRAPHIC] [TIFF OMITTED] T3008.008
    
    [GRAPHIC] [TIFF OMITTED] T3008.009
    
    Mr. Horn. Thank you very much for your comments on this. 
Let me just explain how we function here. When we introduce an 
individual, your full text is automatically in the record. We 
have had an opportunity to go through those texts, and we would 
like to spend most of the time on a dialog with the individual 
rather than just see them read the text. So, please do not read 
the text. Just summarize from the heart.
    I know the Governor knows all of that and the Secretary 
knows all of that, but some of the other people might not.
    No. 2, since this is an investigating committee, we swear 
in all witnesses, and we will try to move expeditiously because 
we know a number of you have appointments elsewhere, planes to 
catch, so forth. Governor, I am conscious of how difficult it 
is to get from/to Wyoming easily. There aren't too many non-
stops.
    But let me just say, if we can swear you in, we will begin 
with your testimony.
    [Witness sworn.]
    Mr. Horn. The clerk will note that the Governor has taken 
the oath, and please proceed. We are delighted to have you with 
us.

   STATEMENT OF JIM GERINGER, GOVERNOR OF WYOMING; AND BRUCE 
               BABBITT, SECRETARY OF THE INTERIOR

    Governor Geringer. Thank you, Chairman Horn, and thank you 
to the committee for taking the opportunity to highlight what 
is a very important issue, and I would say a very important 
concept, because it goes beyond the technology and deals with 
the very heart of the fundamentals of American democracy.
    I compliment you for dealing with it in a timely way. We 
never know exactly when the best time is, and I've often said 
the difference between being a visionary and a fool can often 
be just a matter of timing.
    There is a definite need to acknowledge how Geographic 
Information Systems will reshape our institutions, as well as 
our approaches to governing. It is with that in mind that I 
would like to submit my remarks, as you have noted already, for 
the record; to highlight a few of the principles that are 
involved, and then certainly respond--engage in a dialog with 
you.
    The most fundamental issue I would like to stress, though, 
is that we are on the verge of moving away from a hierarchy of 
control that truly allows the information and the ability to 
make decisions to move down to the individual level. That is a 
concept that is embodied in GIS, and GIS in much more than just 
a geographic natural resource management system.
    It is spatial--S-P-A-T-I-A-L--in the sense that it not only 
shows us the relationship between physical activities, but, 
more than that, it helps define the interrelationships of data, 
of knowledge, and decisions that result from that. It truly 
leads to what we would call enabling the citizen or empowering 
decisions.
    Now, empowerment means being able to make decisions. 
Decisions can come from information, information that has been 
evaluated that can be synthesized and lead to knowledge that 
then becomes persuasive enough to lead to a decision.
    We will talk today somewhat about how the quality of data 
will be critical to that, because a good decision made on bad 
data is still a bad decision. If we are to enable our citizens, 
we have to provide information that is accessible, of quality, 
or at least the limitations are known, and are usable down at 
the individual citizen and the community level. We need to be 
able to enable achievement.
    Let me quickly highlight a few principles and then talk 
more in general terms about the fundamentals that have been 
raised already.
    First of all, as this is an investigative committee that 
will lead toward policy, I offer these principles to serve as a 
basis for your legislative, and even your appropriations, 
decisions.
    First of all, when it comes to GIS, we need standards, yes. 
And these are standards that should be developed nationally, 
not mandated from above at the Federal level, but developed 
between and among our various institutions at the State and 
local level.
    Federal agency involvement should be primarily one of 
national administration and coordination, and then beyond that, 
the enabling through training and grants and technical 
assistance to help develop that local capacity.
    We have citizens of high potential and low engagement, and 
that's where the Federal Government and State governments can 
serve a purpose. So point No. 1 would be, yes, develop national 
standards with neighborhood solutions, and assign 
responsibilities at the most appropriate level.
    Point No. 2, we need to work for collaboration and not 
polarization. The old model that we have in government too 
often prescribes the method of getting there. One thing that we 
know about technology is that it changes so quickly that, if we 
tried to standardize a particular process, we will always lag 
the opportunity that is available to us. We need to keep our 
focus on the end result, and let technology take care of 
itself, rather than mandating a particular approach.
    We need locally based solutions. We need collaboration, and 
not litigation. And the interests that are involved should have 
the incentive to provide resources to support their own 
efforts, not just be looking to someone else for the money.
    The primary cost would be borne by the affected public or 
the private entity using the GIS systems or the data. The 
Federal Government's role would be to provide regulatory 
incentives or competitive grants that reward innovation.
    Point No. 3 is focused on results. Reward the results. Do 
not focus on the processes. The longer an institution is in 
effect, the more likely it is to focus on its own process than 
the end result it was created to achieve. Far too often, 
compliance with a nationally developed goal is measured by 
whether or not an affected party has rigidly followed a 
process, rather than measuring whether any substantive goal was 
achieved. We need to allow innovation rather than--solving 
problems has to take priority over mandated processes.
    Point No. 4 deals with credible science. In order to 
establish proper priorities, we need to allow science to evolve 
to the knowledge that leads to a decision. Competing interests 
too often seek the science that will support their point of 
view rather than letting the underlying facts frame the choices 
to be made. We need to move away from debates about whose data 
is right, and instead, agree that the data is correct and the 
content over values and solutions--much more constructive.
    Point No. 5--and principle No. 5, I should say--markets 
before mandates. Let the marketplace determine the most 
appropriate approach. Governments are especially notorious, at 
every level, for requiring the use of specific technologies or 
processes to achieve what they thought was an end result. 
Prescriptive approaches only reward litigation rather than 
cooperation, and delay is the enemy of achievement. We should 
allow market-based approaches and economic incentives that can 
allow for more efficient and cost-effective results that will 
allow the timely use of data and Geographic Information 
Systems.
    Principle No. 6 deals with that personal understanding that 
Mr. Kanjorski talked about--the Jeffersonian principle. The 
personal understanding of the issue is crucial to quality 
governing. Success in anything depends on the daily choices and 
individual perspectives of our citizens. While we talk about 
the formal structures of government, it is the informal 
structures that really allow governing to be done. These are 
the service organizations, the volunteer organizations, even 
the coffee clubs that meet on a regular basis. The formal 
institutions exist primarily to guide and to settle disputes. 
The informal ones are where government truly occurs. We need to 
start with our Nation's youth, so that all of our citizens are 
empowered to take greater responsibility for what they expect 
from government. Their personal responsibility, on their own 
part, as well as for future generations, allows them to take 
the data that will enable the decisions that will enable that 
capacity at the local level and actually need less government 
as a result.
    Principle No. 7 says measure the benefits against the costs 
and assess the costs and benefits of different options. Many 
times the last ounce of marginal gain is achieved at a very 
high cost. Now, GIS can enable us to see the interrelationships 
of those things and help with making the final decision, and 
principally in measuring the final result against the cost.
    Principle No. 8 is very important, and that is that the 
solutions that we come up with will go across political 
boundaries. When we talk, particularly about GIS and mapping--
when I fly over America, when I fly over Wyoming, I see a State 
that is big enough for any point of view, and I cannot see on 
the ground where it divides Wyoming from Nebraska, Colorado, 
Utah, or even any other area that might define an international 
boundary. Those are limitations that we have imposed. Yet, 
systems require the awareness of concurrent jurisdictions and 
shared responsibilities. We will work best when we consider 
solutions to problems in the natural resource area on 
watersheds, regional issues, biologic, but then going into 
economic and social issues as well.
    If there is one underappreciated area in the use of GIS, it 
is the fact that it can go far beyond natural resource 
management; that while that is the principle focus and that is 
where much of the GIS application began, anything that can be 
viewed in relationship to anything else is a candidate for GIS. 
You can describe it first in terms of geography, but then we 
can go much beyond that and link tables, data bases; and very 
soon--in fact, already--to update those tables and data bases 
real time, so that we have the information available as we need 
it and make the decision based on actual, current information 
as well as any historical trend.
    I will come back to the notion of empowerment, because I 
think that is a worthwhile concept to reinforce, and how we 
obtain information and where we are going and to focus on 
results. This is a GPS receiving unit. It is fairly common. It 
is one of the low-cost models, and it gives me information I 
can use, provided I know what I am doing with it.
    A friend of mine was noting the other day, yesterday, that 
he knew exactly where we were, what altitude we were, the 
velocity at which we were traveling. And I said, ``Bob, where 
are we going?'' We knew exactly where we were, but we did not 
exactly know where we were going, because that data point had 
not been entered yet.
    Mr. Chairman, we would assist our citizens in that 
empowerment aspect if we understood where we were going before 
we imposed all the restrictions. So if we create a body to 
administer the coordination, administration, training, and 
grant offerings through any kind of a GIS system, let us not 
create a body that dictates the outcome. We should decide that 
at the local level, the citizen level, the community level.
    That access to data, then, also demands that we need 
connectivity to enable the achievement. If we are going to get 
to the Jeffersonian view and graduate to the next of democracy, 
we need to assure the availability of data.
    There is a restriction, whether it be in our urban areas, 
the innercity areas, or the rural areas of America, where 
connectivity is not a fact yet, or at least broadband 
capability is not a fact. GIS systems take a large amount of 
bandwidth. So we need larger pipes. We need the opportunity to 
use it, and one thing that will happen as a result of your 
hearing, Mr. Chairman, is a national focus on how much more 
application can be made of GIS systems. Increased usage, then, 
reduces the cost.
    But if there is an area where we need your assistance and 
our mutual assistance--State, local, government included--it is 
how we can collectively generate the market that will encourage 
the private sector to come in and install those systems, 
because I do not believe that government should own the systems 
that connect us. They should not have to own the systems that 
utilize the information. What we should be are the anchor 
tenants in the utilization of systems and data to enable our 
people truly to engage in democracy.
    That would be the extent of my presentation to the 
committee, Mr. Chairman. I have listed in my remarks, the 
testimony offered to the committee, a number of applications in 
the public sector. It is not a complete and comprehensive list, 
nor is the one called private sector, because there are many 
applications far beyond, even which anyone of us are already 
aware. That is the point again to make: that data that shows 
relationships, or data that can be enhanced to show 
relationships through a GIS system, teaches visually something 
we would not grasp any other way.
    As we use technology, it should be so easy and so secure in 
its use that the public feels that they are using something and 
they are not even aware they are using technology. It is 
transparent to the user. It is user-friendly, and it is widely 
acceptable to the point where people are motivated. Knowledge 
gained through discovery is the most enduring, and we can 
discover how we are individually enabled through GIS systems.
    Thank you for your courtesies, Mr. Chairman. And I would 
respond to any questions.
    [The prepared statement of Governor Geringer follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.010
    
    [GRAPHIC] [TIFF OMITTED] T3008.011
    
    [GRAPHIC] [TIFF OMITTED] T3008.012
    
    [GRAPHIC] [TIFF OMITTED] T3008.013
    
    [GRAPHIC] [TIFF OMITTED] T3008.014
    
    [GRAPHIC] [TIFF OMITTED] T3008.015
    
    [GRAPHIC] [TIFF OMITTED] T3008.016
    
    [GRAPHIC] [TIFF OMITTED] T3008.017
    
    [GRAPHIC] [TIFF OMITTED] T3008.018
    
    [GRAPHIC] [TIFF OMITTED] T3008.019
    
    Mr. Horn. Well, I am sorry you have to leave--I understand 
that you need to go catch an airplane--because I would like to 
have Secretary Babbitt, a former Governor, also join us at the 
table and have a dialog. So I do not know what your schedule 
is, but I want to ask you--I do not want you to miss it.
    Governor Geringer. I have a 3 p.m. flight out of Dulles.
    Mr. Horn. Out of Dulles? [Laughter.]
    Well, as an expert on getting to Dulles, you are in good 
shape. It will take 35 minutes.
    Governor Geringer. Got my GPS, too. Well, Mr. Chairman, I 
will excuse myself, then, so you get on with the people here 
who know far more than I.
    I compliment Secretary Babbitt on his initiative with the 
forum that was just concluded. I look forward to a great 
relationship with your committee and the agency.
    Mr. Horn. Let me just ask a fast question, as you are 
leaving here.
    How effective, in your judgment, as a Governor--and I know 
the Governors have probably discussed this--is the coordination 
across the different levels of government in implementing a 
national data infrastructure? Does that worry people as Big 
Brother or something, or what is your feeling on that?
    Governor Geringer. Mr. Chairman, there would be an 
unwillingness to yield to something that is viewed as being 
managed and dictated as somewhere else. We can call above--it 
could be somewhere else. I think the way to overcome that is to 
put enough information and systems in the hands of the people 
to where they think of it as their system; that what we are 
doing, through government, is guiding the standardization, the 
quality, the definition of the data, so that everyone can use 
it.
    GIS is the next step beyond a web browser. The Internet has 
been in existence for a long time, but it did not become 
effective and democratized until there was a web browser. GIS 
is the next step beyond that, because it shows relationships. 
That will be the key to whether or not the public feels 
threatened.
    Mr. Horn. What incentives do you think are needed to help 
build Geographic Information Systems' capabilities and to speed 
up the implementation of the national spatial data 
infrastructure? Do you have any feelings on the types of 
incentives?
    Governor Geringer. I would say the No. 1 incentive is just 
pure advocacy. We should encourage people through demonstration 
and example how effectively it can affect every aspect of their 
life in a positive way, and not just through government.
    Incentives to engage people at the local level would be 
competitive grants. It should not be outright subsidizing, but 
it should be offered in terms of a competitive grant to enable 
that local leadership that is going to be vital. This has to be 
thought of as a community tool, an individual tool, not 
something that government is imposing; and the type that it 
would encourage that would be most appropriate.
    Mr. Horn. So, it is really any data base that the community 
found was a real need, they might well develop that, and then 
the system at all levels would be functioning and open to all; 
is that sort of a conclusion on that?
    Governor Geringer. Definitely, Mr. Chairman. It could be a 
healthcare issue; it could be an open spaces issue. It could be 
a realtor looking for quality neighborhoods. Anything that you 
can visualize in picture format, or a decision that can be 
drawn from an interrelationship, is a candidate for GIS. So we 
should not prescribe that only these areas would qualify for a 
GIS grant. We should say, submit your proposal, and we will 
evaluate that--the criteria of innovation, community 
involvement, and personal empowerment.
    Mr. Horn. Do any of the Members have questions for the 
Governor?
    [No response.]
    Mr. Horn. OK. Well, thank you very much, Governor. We 
appreciate you taking the time.
    Governor Geringer. Thank you, Mr. Chairman. I certainly 
appreciate your courtesies.
    Mr. Horn. OK, we will have the former Governor of Arizona, 
and the current Secretary of the Interior. We welcome you to 
the committee.
    If you would raise your right hand?
    [Witness sworn.]
    Mr. Horn. The clerk will note the Secretary has affirmed.
    I might ask you, Mr. Secretary, that if you have any 
comments to make about the Governor, and the ideas that are 
being percolated in some of the States, based on your own 
experience, we would certainly welcome them.
    Secretary Babbitt. Mr. Chairman, committee members, I very 
much appreciate the chance to come here, and the leadership 
demonstrated by yourself and Congressman Kanjorski in taking up 
a topic which, so far as I can tell, has never stirred the 
heart of a single citizen of the United States, and which to 
this day remains happily unknown to the American community. 
That, of course, is going to change, and I think this is a very 
timely hearing.
    Now, I appear here as the chairman of the Federal 
Geographic Data Committee. It is an interesting committee. I 
have now been chairman--I am going into my 7th year as chairman 
of this committee. As chairman, I have no power of any kind--
[laughter]--except to come to lengthy meetings on a quarterly 
basis to talk with a rag-tag band of dedicated people from 
Federal agencies who really care about this stuff.
    And for 7 years, we have been under the radar to the point 
of being totally invisible. We have, I believe, in 7 years, 
generated two articles in the general press, both of which 
during those 7 years appeared I think on about page 39 of every 
newspaper that I saw. That, too, Mr. Chairman and committee 
members, is about to change. And with your help, I believe can 
change in a very productive way.
    This issue was focused in my mind in January 1998, when the 
National Academy of Public Administration, which had been 
commissioned by some of the participating agencies to study 
this process, issued a report. I commend this to the committee 
members and everyone else who is interested in this product, 
and some of the people who participated in it will be 
testifying today.
    The importance of this report, particularly in chapters 
four and five, is that the Academy study says, you are reaching 
the limits of this pick-up ball game approach to the 
organization of the Federal Geographic Data Committee, and the 
participation, which they say, has really been quite good in 
terms of the university GIS people, the State parties, and all 
of the others. But the clear message in this report is we need 
some legislation to put this together and make a congressional 
statement about the importance of this.
    There are two or three proposals in here that I think are 
ripe for legislative consideration. I am not sure I would have 
said that in January 1998. I certainly would have said it in 
1995 or 1993. But I think we are there.
    The first recommendation that I would focus you on is the 
committee's conclusion that we need framework legislation to 
define the Federal effort. The FG--the Federal Geographic Data 
Committee--as I have already said, is an entirely voluntary 
kind of tea party. We need to get some starch in this 
organization now. And we need some direction from Congress 
about mandates, not to other partners, and not out in the 
outside world, but internally within the Federal Government.
    We are spending billions of dollars on GIS issues all over 
this government. And I think we have reached the limits of our 
ability to jawbone, and that it really is an appropriate time 
for the Congress to look at this and say, OK, we would like 
Federal agencies to do as follows, and then write the 
prescription. I would make I think an enormous difference.
    The second proposal in here is a very interesting one, and 
I would urge you, Mr. Chairman, and committee members, to quiz 
the private sector and State and local governments about this 
recommendation. The report suggests that there should be a 
National Spatial Data Council. Now this is stepping outside the 
Federal family. And the report would have that body chartered 
by the government, by Federal legislation, but operating 
outside of government, as a quasi-governmental, essentially 
private, non-profit organization, which would operate with all 
of the partners at the table, searching for consensus and 
standards. I think it is a very significant proposal. There is 
some division of opinion about it, but I think the committee 
should look at that very carefully.
    Third is a proposal in this report to consolidate within 
the Federal Government the geodesy and geodesic functions of 
the government. And this stuff gets pretty technical. But 
underlying the kinds of things the Governor spoke about is a 
very basic issue of cadastral survey, geodesy, geodetics. This 
is basically about how it is this information process is tied 
the Earth, and how it is that we establish reference points 
that relate to the shape of the Earth, and how this all works 
down at the point of contact with the globe. These functions 
are scattered all over government right now, and there is some 
very interesting proposals here.
    Now, Mr. Chairman, last, I realize that this is not an 
Appropriations Committee, but I would respectfully suggests 
that the members of this committee could play an important role 
internally in the budget process, and I would--rather than 
going through that--ask you to weigh the comments of some of 
the other witnesses, particularly, I believe the representative 
from the National Association of Counties. But what we have for 
the coming year is effectively a budget cross-cut, put together 
by five or six agencies to do the kinds of things that Governor 
Geringer described, in terms of competitive grants to kind of 
jump start this process.
    Mr. Chairman, committee members, I would be happy to rest. 
I do not have an airplane to catch. I just got off an airplane, 
and I would like to get out of here and go sit under a tree 
somewhere. [Laughter.]
    [The prepared statement of Secretary Babbitt follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.020
    
    [GRAPHIC] [TIFF OMITTED] T3008.021
    
    [GRAPHIC] [TIFF OMITTED] T3008.022
    
    [GRAPHIC] [TIFF OMITTED] T3008.023
    
    [GRAPHIC] [TIFF OMITTED] T3008.024
    
    [GRAPHIC] [TIFF OMITTED] T3008.025
    
    Mr. Horn. You would have to leave the Capitol grounds, as 
some said. When our group came in 1992, they said, ``hey, do 
you know they have got one tree of every type in America on 
these grounds.'' We cannot escape the allergies. [Laughter.]
    So, we are all sneezing this time of year, one way or the 
other.
    Well, let me just pick up that last point on a council and 
the representation. We have got some other ones that come to 
everybody's mind--the Governors' Association, the big city 
mayors, the small city mayors, the counties, the State 
legislatures, the international city managers, and on down the 
line--that would have a direct relevant interest. What do you 
think about a council that specifies a representative from 
those particular groups, and others obviously, as well as the 
professional groups that are involved, that mixes the 
practitioner with the professional? I have formulated a council 
once with a good friend of mine, the National Institute of 
Corrections, and we put space for people that knew nothing 
about the subject, so they could hold everybody accountable. 
That was always my role. So I am used to that role, and 
somebody that is not a practitioner or is not a professional, 
or is not an elected official, but someone with an interest 
there, shall we say.
    So, I am sure that everybody would have a lot of good ideas 
on that, but I think it makes a lot of sense what you are 
talking about.
    Secretary Babbitt. Mr. Chairman, if I might briefly 
respond?
    The idea of having community representatives is, I think, 
very important because it would teach people how to make this 
comprehensible and interesting. Now, I must say, that is a very 
hard job. I was once invited to explain the national spatial 
data infrastructure at a Cabinet meeting, and I could just 
watch people nodding off all the way around the table, and I 
finally gave up.
    The private sector is the other important piece here.
    Mr. Horn. Sure.
    Secretary Babbitt. And Mr. Dangermond and others will 
discuss that.
    Mr. Horn. In terms of the standards that are to be 
developed--and you heard the Governor's strong feelings, and I 
am sure there are many of our feelings--to go from the bottom 
up, not the top down. And then the question would be, to what 
degree would both federally mandated or non-federally mandated 
standards be related to this, and how do you see that working?
    Secretary Babbitt. Mr. Chairman, we have considerable 
experience with that, and we have developed a number of 
standards, both what are known as framework standards, which 
kind of set the table for fitting the data in, and data 
standards themselves. But we have done that in a consensus-
driven process. We do not have any power to mandate anything.
    But if you go out there, and you might press Mr. Dangermond 
about this and see if he is--and others--in agreement, but we 
have managed to formulate non-binding, non-mandatory consensus 
standards. Nobody has to do nothing. But almost everybody is, 
in fact, moving toward implementation of these standards. And I 
think we can continue that process.
    Now, there may be standards issues within particular 
groups. For example, it may be that this committee would say, 
within the Federal family, there are particular issues that 
would require the Congress to mandate particular things. But in 
terms of the standards generally used, I don't think there's 
any need to do that.
    Mr. Horn. Do my colleagues have some questions at this 
point? Mr. Kanjorski.
    Mr. Kanjorski. I thank you very much. Mr. Secretary, going 
along with the need for, or lack thereof, a formalized set of 
standards, I wanted to call your attention to a visit I made to 
Missouri several years ago at one of the USGS Centers. As a 
friend of mine, Bill Emerson, and I were going through this 
center, the leadership took us aside and said, ``Do not ever 
allow the Congress to do what they did the last time.'' We 
said, ``what was that?'' They said, when we were told to map 
America, it got into a political issue of States' rights, so 
the determination of Congress was that each State shall award 
the contract to map its State, and then it would be brought 
together. When they put the 50 States together, America could 
not be joined.
    What I am particularly worried about is that we just may 
end up doing something similar. I like a voluntary standard. 
But there are certain things, it would seem to me, that have to 
line up and be rather standardized, particularly if we are 
going to work with--and I am most worried not only that we have 
standards, but that we have a way of validating the data; that 
they comport with those standards and the information is 
actually correct.
    I look at this issue starting out almost virgin. We have a 
few years to try and make sure that it does not get polluted. 
If we do not, a lot of this information will become axiomatic. 
We may end up bombing the Chinese Embassy by mistake but nobody 
will ever believe us.
    I do not like to mandate from the top but I think the fact 
that you bring the issue up is important.
    Do you think, with the use of the funding that we are 
talking about that the administration and the various agencies 
have requested to get some handle on GIS, we could have some 
organized thought process as to encourage standards to be 
pooled, at least, and considered? Or standardized at least in 
these beginning grants?
    Secretary Babbitt. Congressman, all right, I hope you will 
ask that question of people from other sectors here. And I am 
going to venture that what you will hear from all of them is 
that there is not a problem with standards; that we have, in 
fact, progressively, for 6 years, with the involvement of 
everybody here, worked out some very basic things. The 
framework standards are moving. This is how you fit everything 
together in a national kind of container. And they are being 
implemented. The data standards are now moving out. This has 
been an excruciatingly slow process because we have talked and 
talked and met and met and worked with States and cities and 
universities and the private sector, but those standards are 
popping out.
    With respect to the quality of the information, the trade 
calls them meta-data standards, the data behind the data. That 
one has been worked out, for the most part, by consensus.
    Now, the theory is that in this voluntary group of Federal/
State, the early users into the system will set a standard 
which will become the presumptive standard, because it so 
obviously would be in the interest of everyone. But I would be 
interested to hear more about that.
    It is my feeling that we need not mandate anything in terms 
of the broader community, which would be encompassed by this 
National Spatial Data Council. I do urge you to entertain some 
direction for the Federal partners and how they go about 
gathering information, because some of them are onboard, and it 
is going great. Other ones are--you know, I am not sure we are 
doing it as efficiently as we ought to.
    Mr. Kanjorski. One other question. The President is about 
to go on a tour, in the beginning of July, of the distressed 
economic areas of the country that have not benefited from the 
last 6\1/2\ years of economic improvement. Generally, when I 
get into these areas, whether it is in hearings or 
investigative mode, I find that, to a large extent, they do not 
have the building blocks that are necessary to really be 
competitive, to be attractive for industry, and to develop.
    How are we going to stimulate communities like the 
Mississippi Delta, and a lot of the interior of the United 
States that have really been passed by and that are on their 
way, proportionately at least--they are starting to appear to 
be Third World Nations? If left to their own designs, I am not 
sure whether I agree with the Governor or not, that he thinks 
devolution will work. I am not sure it does. In my district, I 
have seen it not work. That is why it came to my attention. 
That is why I got involved.
    Secretary Babbitt. Congressman, interesting question. In 
the aftermath of Hurricane Mitch in Honduras, El Salvador, and 
Nicaragua, this huge relief effort was mounted. And early on, 
these mapping and spatial data issues became critical because 
there were no maps, no data. The infrastructure was all out. 
And in the emergency legislation, the Geological Survey was 
called upon to provide the kind of thing you are talking about. 
And I would encourage staffers and committee members to take a 
couple hours and go out to the center in Reston and let them 
show you what is up and operating in Central America, because 
it is really an incredible, powerful display of what can be 
done from existing satellite resources, merged through the 
Civil Applications Committee and the other institutions out 
there.
    And I, you know, lay that out to answer--if we can do it in 
Central America, we ought to be able to do it in the 
Mississippi Delta as well. Yes, it is a matter of resources.
    Mr. Kanjorski. Is that the role of the Federal Government?
    Secretary Babbitt. Absolutely.
    Mr. Kanjorski. Do we have to stimulate?
    Secretary Babbitt. Absolutely.
    Mr. Kanjorski. At least that level. Then, if Government 
wants to get more sophisticated or have its standards changed 
or modified by private industry or locality, they can do that. 
At least, we ought to have something of a standard bit of 
information existing and up to a level that helps put everybody 
on a competitive equal ground.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you. Let me ask you about the U.S. 
Geological Survey. I have been a long-time fan of that since I 
had geologists in my family, and I enjoyed taking the courses.
    As you look at it, are they pursuing a lot of these data 
bases or have they not been given appropriate funding in the 
last several decades? What is your reading on that?
    Secretary Babbitt. Well, two thoughts. The National Mapping 
Division of the GS has undergone a profound change in the last 
decade, because it used to be a paper map group. When I was in 
graduate school, we made maps by plane-tabling. We would carry 
our plane table out there with a rod man, and work the 
landscape. That stuff is all obsolete. Gone. This is a digital 
world, and no aspiring geologist is ever going to see anything 
like that because it all comes out of the sky now.
    And the GS is making a transition to a digital data 
universe. And it has not been without complications, and that 
is discussed in this report, too. And I would say that the 
discussion in here is quite fair. The transition is underway, 
and I think they are getting back into a leadership position.
    The Geological Survey has been starved for funding over the 
last 7 years. The reason is: It does not have a constituency. 
The constituency for science in this Congress, because of 
public command, is NASA, big space programs, NIH, medicine. And 
we are lagging on basic science, and the GS may be the best 
example of that.
    Mr. Horn. Well, I appreciate that comment. And we do have 
good relations with the relevant Appropriations Committees, and 
I hope we can be helpful on some of these things.
    Secretary Babbitt. Thank you.
    Mr. Horn. If there are no more questions from my 
colleagues, we thank you very much for spending the time with 
us, and we appreciate it. We welcome any ideas you have or any 
other thoughts on the way when you find that tree? [Laughter.]
    Secretary Babbitt. Mr. Chairman, thank you. Thank you.
    Mr. Horn. And do not let anybody call you ``Ferdinand,'' by 
the way.
    OK, panel two, we will start with, and we have a 
distinguished colleague which will introduce one of the 
panelists.
    Panel two is Mr. Terry Bills, the managing principal 
planner, Information Services Department, Southern California 
Association of Governments, otherwise known as SCAG; Mr. Tom 
Sweet, Pennsylvania GIS Consortium; Ms. Suzanne Hall, assistant 
county executive, Wayne County, MI. This subcommittee will be 
in Detroit in the next few months. We are looking at the year 
2000 situation. Honorable Victoria Reinhardt, commissioner and 
chair, Ramsey County, MN. And the Honorable Sue Cameron, 
commissioner and chair, Tillamook County, OR; Mr. Lawrence F. 
Ayers, Jr., project panel member, National Academy of Public 
Administration.
    Congresswoman Darlene Hooley is here, a Member from Oregon. 
And Members have lots of things to do, so we are going to take 
this group out of sequence, and have you introduce Ms. Cameron.

STATEMENT OF DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF OREGON

    Ms. Hooley. Thank you, Mr. Chair, and other members. It is 
my pleasure to introduce someone like Sue Cameron, who is 
commissioner of Tillamook County. As a native Oregonian, people 
have come to know her by more than just her achievements. Her 
license plate back home says it all. And it says: NRG. And if 
you say it quickly, it is what she brings to all situations, a 
lot of energy.
    During her 13 years as administrator of the health 
department in Tillamook County, she was able to institute a 
teen pregnancy program that caught the attention of the entire 
Nation. Under her watch, Tillamook County teen pregnancy rates 
dropped from 20 per 1,000 down to 7. Sue's energy was at work 
then, and she is still one of our most respected county 
commissioners in our State.
    She is now bringing people together to solve some huge 
problems that we have in Tillamook County, with the performance 
partnership taking on issues like economic development and 
planning and watershed issues. And probably, more than anyone 
else, she knows how important GIS is to the rural communities 
and rural counties. And so I know you will enjoy her testimony, 
as I am sure you will of all the panelists. And I am glad to 
introduce one of Tillamook's greatest assets, Commissioner 
Cameron. Thanks. Thank you, Mr. Chair.
    Mr. Horn. Well, we thank you very much for coming and 
spending some time with us.
    If you will stand and raise your right hands, please. Well, 
let me ask you, are there any assistants that will be talking 
behind you, because we will swear them all in. All right.
    [Witnesses sworn.]
    Mr. Horn. The six witnesses affirmed, the clerk will note.
    And we will start down the agenda with Mr. Bills, the 
managing principal planner, Information Services Department, 
Southern California Association of Governments.
    Nice to have you.

    STATEMENTS OF TERRY BILLS, MANAGING PRINCIPAL PLANNER, 
     INFORMATION SERVICES DEPARTMENT, SOUTHERN CALIFORNIA 
    ASSOCIATION OF GOVERNMENTS; TOM SWEET, PENNSYLVANIA GIS 
  CONSORTIUM; SUZANNE HALL, ASSISTANT COUNTY EXECUTIVE, WAYNE 
COUNTY, MI; VICTORIA REINHARDT, COMMISSIONER AND CHAIR, RAMSEY 
  COUNTY, MN; SUE CAMERON, COMMISSIONER AND CHAIR, TILLAMOOK 
 COUNTY, OR; AND LAWRENCE F. AYERS, JR., PROJECT PANEL MEMBER, 
           NATIONAL ACADEMY OF PUBLIC ADMINISTRATION

    Mr. Bills. Thank you, Chairman Horn and members of the 
committee. I appreciate the opportunity to address your 
committee today and to present a few thoughts on how we might 
create more effective partnerships between our various levels 
of government.
    Much like some of the speakers that you have and will hear 
today, we at SCAG feel that GIS technology can provide an 
effective tool in the decisionmaking process and which can 
broaden participation in the formulation of public policy. We 
feel so strongly about that, that we have actually distributed 
computers, GIS technology, software, data, and pre-built 
applications, as well as training to all of the jurisdictions 
in our area, some 180 cities. At the heart, these applications 
are designed to help our cities more effectively coordinate 
their actions, recognizing that we will only solve our very 
severe air quality and congestion problems in southern 
California through the joint efforts of cities working 
together.
    The heart of every effective GIS is the data and 
information upon which this technology depends. While data 
collection costs have been coming down, it still remains that 
data is probably one of the most expensive components in a GIS. 
And in this context, we applaud the efforts of the Federal 
Government Data Committee, through the national spatial data 
infrastructure, to encourage the creation of spatial data 
catalogs which help and seek to make more data accessible to 
all. I think it still remains, however, that there is too much 
unnecessary duplication in data collection, with the result 
that scarce public resources are not being used as effectively 
as they should. Because different agencies and levels of 
government have different needs for the information, it is 
quite common for two agencies to collect the same information 
at different scales.
    We have many examples, and I will not bore you with all the 
details. But I do think there is considerable opportunity to 
reduce redundancy among Federal, State, and local efforts.
    The root cause of this is ultimately a human one: that data 
partnerships take time and they take effort to succeed. In 
various agencies, when the data collection budgets are already 
approved within individual agencies, we have few incentives to 
form effective partnerships. Let me state that I think that the 
technology already exists to make such partnerships easier and 
to resolve the issues of scale and consistency, which have been 
the most common objections to such multi-agency coordination.
    As an example, in southern California, when we will collect 
the basic information for our year 2000 land use update, we at 
SCAG will pay for the cost of the digital ortho-photographs, 
photos, at a scale appropriate for regional purposes, while 
partnering with all of the individual cities, to collect the 
data that are more appropriate for their uses, allowing them to 
pay the incremental cost difference. While this makes the 
process a little bit more cumbersome and more difficult, from a 
logistical point of view, we do it because it is part of our 
mission to provide wide benefits to our members.
    Let me be clear that I do not think this is an area which 
requires additional regulation, nor should budgets be reduced 
to bring about collaboration. Rather, I think ultimately we 
need to change the mission and the incentive structure of 
agencies to place a premium on the creation of effective 
partnerships among agencies.
    In this context, a role that this committee may wish to 
consider is to ensure that the performance standards of various 
Federal agencies also include measures of effective partnering 
with State, regional, and local agencies. I maintain ultimately 
that the Federal agencies stand to gain as much from that 
process as the State and regional agencies.
    I think this can be accomplished with little, if any, 
additional cost to the Federal Government, while ultimately 
ensuring that the data which is collected will ultimately 
benefit the greatest number of users.
    Additionally, as I think was previously mentioned, 
competitive grant programs designed to foster such interagency 
coordination can be effective at bringing down the bureaucratic 
barriers which have typically prevented data coordination and 
partnering.
    Finally, if I might say a few words about data standards, 
or what we often called in the GIS community meta-data. The 
Federal Government has taken I think a commendable lead in 
attempting to establish common meta-data standards. These are a 
critical component which allows agencies to effectively share 
information. But I also think that up to this point, these 
committees have been, to some extent, among the already 
converted and among the most technically proficient, but which 
have missed important components of the community. As one who 
has attempted to encourage local cities and counties into 
adopting such standards, I can also point out the difficulty or 
perhaps even irrelevance of existing meta-data standards to 
many local governments. It is very difficult to get them to 
implement what are, at this point in time, quite admirable 
standards, but also quite complex standards.
    The value of GIS technology is too important to relegate to 
technical experts, but ultimately should be broadened to 
include a much wider audience. The Federal Data Committee can 
and should play an important role in this regard. But I think 
it does need to encompass and broaden to include the entire 
community. Only in this way can we devise standards relevant to 
all.
    This concludes my remarks, and, again, thank you for 
inviting me to participate and or consideration of my comments.
    [The prepared statement of Mr. Bills follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.026
    
    [GRAPHIC] [TIFF OMITTED] T3008.027
    
    [GRAPHIC] [TIFF OMITTED] T3008.028
    
    [GRAPHIC] [TIFF OMITTED] T3008.029
    
    Mr. Horn. Well, thank you very much.
    I think one or two might have come in after I noted that 
your full statement is automatically put in the record when we 
call on you. And if you could summarize it in about 5 minutes, 
that would be appreciated, so we have more time to dialog among 
you and with you.
    Our next presenter is Mr. Tom Sweet of the Pennsylvania GIS 
Consortium. Mr. Sweet.
    Mr. Sweet. Good afternoon, Mr. Chairman, and thank you for 
this opportunity to participate in what I think is a very 
important event. I think I would like to take you up on your 
offer of leaning on the testimony that I have submitted, and I 
will be brief, and hit some of the highlights.
    I think that what we need to understand here is in central 
Pennsylvania we have started to see the evolution of some 
organizations, like one that I currently represent, the 
Pennsylvania Geographic Information Systems Consortium, which 
is working to coordinate GIS in the central and northeastern 
portions of the State.
    I think some of the key concepts that are worth revisiting 
are the impacts of coordination and locally independent 
activities that take place at the county levels. Specifically, 
what I have seen since 1994, or where I have had the 
opportunity to work with several counties in the center of the 
State in deploying this type of technology, is that, when they 
do it separately, some rather dramatic things happen. When you 
start to get them to work together, and they are starting to do 
it on their own, some things worth noting, I think, take place.
    One of the best examples, I think, is we had a county in 
central Pennsylvania that went out on a data acquisition 
process that ended up costing it approximately $225 per square 
mile in a 300-square mile county. When we took the same 
specifications that they used and started to tweak them a 
little bit for the second time around kind of thing where you 
can improve them, and we put six counties together, the same 
process cost $84 a square mile. That is a significant savings. 
And I think that when we look at trying to find the resources 
to coordinate, when we look at trying to find the resources to 
make these kinds of things happen, we cannot miss the obvious 
resources that seem to be laying around at the local level.
    I think the other thing that starts to happen is that as we 
look at the day-to-day operations of individual elements of 
local government, what we are starting to see is that entities 
like the 911 centers, entities like tax assessment offices, 
zoning and planning offices, are not embracing GIS because it 
is a new technology that has got a lot of whistles and bells. 
They are embracing it because it makes their job easier to do.
    And what that offers us is an opportunity, as Mr. Bills 
pointed out. What we found is the significant costs of a GIS 
implementation are in the data acquisition and maintenance 
activities. They can run as high as 70 percent of a particular 
application. Of those two, the routine data maintenance 
activities are the ones that continue to linger on and on. What 
we are finding is that in deployments where the data 
maintenance and acquisition activities are not including the 
people who have to do that on a day-to-day basis, those types 
of deployments have difficulty surviving and ultimately fail.
    I think as we look at what can be done at the State level 
and the Federal level, what we have to understand is that what 
we really need to form are true partnerships between the 
Federal and the State organizations, between the State and the 
local organizations. We have to include the educational 
sectors. We have to include the private sectors, all of which 
have expertise to offer. In that line of thinking, there are a 
couple of actions that I think would help.
    I think we need to provide incentives to local governments 
to continue to develop NSDI compliance or framework-compliant 
data sets. All too often what happens is that they see no 
Federal dollars or no State dollars coming to their data 
acquisition processes, so they do not feel obligated to do 
things that might be in the betterment of a larger community.
    We need to provide, likewise, incentives for State and 
Federal Government to demonstrate that they are, in fact, 
partnering with each other. I think we need to create budget 
line items that not necessarily take-away moneys in particular 
sources, but provide some kind of a mechanism for demonstrating 
that that coordination activity is taking place.
    I think, specifically, we need to support and accelerate 
the NSDI and framework methodologies; try to get that into the 
field as rapidly as possible. A survey in the State of 
Pennsylvania has indicated that all of the counties are 
currently embracing GIS. Many have already begun.
    Finally, I think it is necessary to support the community 
Federal information partnership process. And I think it is 
important in doing so to support it in such a fashion that 
creates a mechanism where those resources can be delivered 
flexibly and efficiently to where they make the most sense. And 
in my instance, or from my perspective, they make the most 
sense in the coordination activities of the data acquisition 
and maintenance process. Thank you.
    [The prepared statement of Mr. Sweet follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.030
    
    [GRAPHIC] [TIFF OMITTED] T3008.031
    
    [GRAPHIC] [TIFF OMITTED] T3008.032
    
    [GRAPHIC] [TIFF OMITTED] T3008.033
    
    [GRAPHIC] [TIFF OMITTED] T3008.034
    
    [GRAPHIC] [TIFF OMITTED] T3008.035
    
    [GRAPHIC] [TIFF OMITTED] T3008.036
    
    [GRAPHIC] [TIFF OMITTED] T3008.037
    
    [GRAPHIC] [TIFF OMITTED] T3008.038
    
    [GRAPHIC] [TIFF OMITTED] T3008.039
    
    [GRAPHIC] [TIFF OMITTED] T3008.040
    
    [GRAPHIC] [TIFF OMITTED] T3008.041
    
    [GRAPHIC] [TIFF OMITTED] T3008.042
    
    [GRAPHIC] [TIFF OMITTED] T3008.043
    
    Mr. Horn. Thank you very much.
    Our next witness is Ms. Suzanne Hall, who is the assistant 
county executive of Wayne County, MI.
    Let me ask you, Ms. Hall, do you also handle things like 
the year 2000 Y2K problem?
    Ms. Hall. Yes.
    Mr. Horn. OK. Well, I hope our staff will get with you 
before you leave town, because we are hoping to have a hearing 
in Detroit, and we would love----
    Ms. Hall. Oh, very good.
    Mr. Horn [continuing]. To hear what Wayne County is doing.
    Ms. Hall. We would love to welcome you to Wayne County.
    Mr. Horn. Good. Thank you. I thought we would save a little 
phone calls that way.
    So please proceed.
    Ms. Hall. Mr. Chairman, and members of the committee, I 
appreciate the opportunity to be here, and I really appreciate 
the chairman saying throw out your speech and just summarize 
it, because I do much better with summary than reading word for 
word. And the 5-minute time limit made me quite anxious on 
whether I could get through everything we wanted to say.
    Mr. Horn. Don't worry. We will give you another 10 seconds.
    Ms. Hall. OK. I am here on behalf of our county elected 
executive, Ed McNamara, to talk about what we have done in 
Wayne County, which we think is a model for the rest of the 
country in how we approach GIS.
    A little bit about Wayne County: We are the eighth largest 
county in the country. We have 2.1 million people; 43 
jurisdictions, including the city of Detroit. We are very 
diverse. We go from the very, very rural to the very urban.
    And what happened in Wayne County--we have 6,000 
employees--is that the county executive was hearing that the 
airport was going to develop a GIS application, and environment 
department, and roads department, and they were all out 
developing their own little GIS, and he said: Wait a second, 
let us pull it in, and let us do it together as one GIS for 
Wayne County. And that is how I view the Federal Government 
that they are out doing a lot of little GISs, but they are not 
pulling it together.
    Primarily, we need to have an organizational structure that 
is consensus-based. And what we have done with our partnerships 
that we have developed with neighboring counties, with the 
State of Michigan, with the utilities, and with the private 
sector, is that we will build--in Wayne County we are investing 
$14 million--we are different than many other municipalities in 
that we are putting up the money upfront--$14 million to build 
a parcel base map. And we are going to provide it to all our 
local jurisdictions, free of charge, as we make the same offer 
to the Federal Government--in exchange for the data elements 
that we need from those municipalities back to us.
    We view this as an opportunity to improve government 
services to make us more efficient; and therefore, that is the 
payback in the long-term. We, however, recognize that we cannot 
do it by ourselves. That is a huge investment from county tax 
dollars, and we are actually looking for leadership from the 
Congress, and I have actually spent the last couple of days 
talking to members of the Michigan delegation just, first of 
all, educating them what GIS is, because I am not a 
technocrat--it took me about 2 years to even know what it 
means--but educating them and having them understand what it 
means to their constituents. I mean, that is what this is all 
about: What does it mean to our community? What does it mean to 
our neighborhood? What does it mean to our individual families? 
And I think that that is really the toughest saw of all, is 
that: How do you bring it to individuals?
    So we have been working with our congressional delegation, 
and we are asking--although you are not at the Appropriations 
Committee, we understand that--we are asking for your 
leadership in helping to receive support for the President's 
Community/Federal Information Partnership, like CFAB, budget 
recommendations.
    Then, how do you go about allocating the money? I would 
hope that, if, in fact, the funding does become available, the 
government will look at those places that have developed 
partnerships and use that as the framework for competitively 
providing funds to local units. Because getting back to what 
Congressman Kanjorski had said earlier today at the conference, 
and then also this afternoon, it is that we are going to be at 
a point where we have the haves and have-nots within the 
communities.
    We have communities in Wayne County that do not have 
computers. Yet, we have those that spend millions and millions 
of dollars to correct Y2K. So we have to make sure that, as we 
approach GIS, and as we institutionalize it and in providing 
community services, that we help the haves as well as the have-
nots.
    So that is a very quick summary of my statement because I 
would rather spend time in dialog.
    [The prepared statement of Ms. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.044
    
    [GRAPHIC] [TIFF OMITTED] T3008.045
    
    [GRAPHIC] [TIFF OMITTED] T3008.046
    
    [GRAPHIC] [TIFF OMITTED] T3008.047
    
    [GRAPHIC] [TIFF OMITTED] T3008.048
    
    [GRAPHIC] [TIFF OMITTED] T3008.049
    
    [GRAPHIC] [TIFF OMITTED] T3008.050
    
    [GRAPHIC] [TIFF OMITTED] T3008.051
    
    Mr. Horn. Well, thank you very much. That is a very helpful 
statement.
    Next is the Honorable Victoria Reinhardt, commissioner and 
chair of the County of Ramsey in Minnesota. Glad to have you 
here.
    Ms. Reinhardt. Mr. Chairman, members of the committee, I am 
Ramsey County Commissioner Victoria Reinhardt, Chair, not of 
the county board, but of the Metro GIS Policy Board.
    Thank you for this opportunity to testify regarding Federal 
Government assistance for implementation of locally 
independent, regionally coordinated multi-purpose GIS programs.
    Since 1995, organizations in the St. Paul-Minneapolis metro 
region have been working for a sustainable structure for our 
common geospatial data needs. Metro GIS is an ambitious 
undertaking to fill that need that has brought together over 
250 local units of government.
    The board is a broad cross-section of the organizations 
that have made strong commitments to Metro GIS. The policy 
board itself is advised by a coordinating committee comprised 
of over 20 GIS professionals and managers. The Metro Council, 
which is a regional agency in the seven-county metro area of 
Minnesota, covering 3,000 square miles and more than 2\1/2\ 
million people, has been a champion for Metro GIS and is 
committed to achieving the Metro GIS vision. That vision is to 
provide an ongoing stakeholder-governed, metro-wide mechanism 
through which participants easily and equitably share 
geographically referenced graphic and associated attribute data 
that are accurate, current, secure, of common benefit, and 
readily usable.
    Metro GIS is a stakeholder-governed board and is a work-in-
progress. The definition stage will be substantially complete 
this fall. We abide by guiding principles which include, first 
of all, policymaker involvement early and throughout.
    Second, common business information needs drive the 
organization. In other words, what information do you need to 
do your business?
    Third, recognition is given to cost recovery as a 
legitimate practice, and one that must be dealt with head on.
    And finally, compensation is needed for tasks beyond 
internal business needs.
    Major accomplishments include a 1998 Governor's 
Commendation for an Exemplary GIS Project, a partnership that 
provides access to the Lawrence Group's addressable street 
center line data set. We have received formal endorsement from 
all the policy boards of the key stakeholders, and an agreement 
was reached to appoint a member to serve on the policy board. 
The priority information needs were unanimously approved, and 
the data finder is operational and can be found at 
www.datafinder.org. We are very proud of data finder. We have 
data- and cost-sharing agreements that have been executed with 
all seven counties, which levels the playing field for data-
sharing, and was something that was mentioned earlier by 
members of the committee.
    And finally, we received a grant from NSDI Framework in 
1998 for the Fair-Share Financial Model Project.
    Major challenges that are faced by Metro GIS include 
achieving agreement on benefits received from Metro GIS, and I 
think, all too often, the needs that we are talking about here 
are simply taken for granted.
    Defining an equitable means to share the cost and securing 
a stable financing source.
    Data practices are an obvious consideration.
    And finally, achieving Metro GIS' needs while also trying 
to ensure that a migration path will be available to achieve 
objectives of NSDI.
    As far as the Federal Government involvement, I believe you 
should continue to advocate the data-sharing and dialog; 
provide leadership on development of standards; maintain the 
grant programs, and consider something such as bridge funding 
to help establish collaboratives. The Federal Government in the 
long run will save money. Support benefits research and 
participate directly in operating collaboratives based on the 
direct benefit received.
    Current Federal efforts are seeking to provide for livable, 
sustainable communities. Through GIS and data-sharing, we can 
attack issues such as urban sprawl and improved economic 
competitiveness. Issues such as these do not recognize 
jurisdictional boundaries.
    In conclusion, we are ready, willing, and able to work 
collaboratively with you on regional GIS efforts. Again, thank 
you for this opportunity.
    [The prepared statement of Ms. Reinhardt follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.052
    
    [GRAPHIC] [TIFF OMITTED] T3008.053
    
    [GRAPHIC] [TIFF OMITTED] T3008.054
    
    [GRAPHIC] [TIFF OMITTED] T3008.055
    
    [GRAPHIC] [TIFF OMITTED] T3008.056
    
    [GRAPHIC] [TIFF OMITTED] T3008.057
    
    [GRAPHIC] [TIFF OMITTED] T3008.058
    
    [GRAPHIC] [TIFF OMITTED] T3008.059
    
    [GRAPHIC] [TIFF OMITTED] T3008.060
    
    [GRAPHIC] [TIFF OMITTED] T3008.061
    
    [GRAPHIC] [TIFF OMITTED] T3008.062
    
    [GRAPHIC] [TIFF OMITTED] T3008.063
    
    [GRAPHIC] [TIFF OMITTED] T3008.064
    
    [GRAPHIC] [TIFF OMITTED] T3008.065
    
    [GRAPHIC] [TIFF OMITTED] T3008.066
    
    [GRAPHIC] [TIFF OMITTED] T3008.067
    
    [GRAPHIC] [TIFF OMITTED] T3008.068
    
    [GRAPHIC] [TIFF OMITTED] T3008.069
    
    [GRAPHIC] [TIFF OMITTED] T3008.070
    
    [GRAPHIC] [TIFF OMITTED] T3008.071
    
    [GRAPHIC] [TIFF OMITTED] T3008.072
    
    [GRAPHIC] [TIFF OMITTED] T3008.073
    
    [GRAPHIC] [TIFF OMITTED] T3008.074
    
    [GRAPHIC] [TIFF OMITTED] T3008.075
    
    [GRAPHIC] [TIFF OMITTED] T3008.076
    
    [GRAPHIC] [TIFF OMITTED] T3008.077
    
    [GRAPHIC] [TIFF OMITTED] T3008.078
    
    [GRAPHIC] [TIFF OMITTED] T3008.079
    
    [GRAPHIC] [TIFF OMITTED] T3008.080
    
    [GRAPHIC] [TIFF OMITTED] T3008.081
    
    [GRAPHIC] [TIFF OMITTED] T3008.082
    
    [GRAPHIC] [TIFF OMITTED] T3008.083
    
    [GRAPHIC] [TIFF OMITTED] T3008.084
    
    [GRAPHIC] [TIFF OMITTED] T3008.085
    
    [GRAPHIC] [TIFF OMITTED] T3008.086
    
    [GRAPHIC] [TIFF OMITTED] T3008.087
    
    [GRAPHIC] [TIFF OMITTED] T3008.088
    
    [GRAPHIC] [TIFF OMITTED] T3008.089
    
    [GRAPHIC] [TIFF OMITTED] T3008.090
    
    [GRAPHIC] [TIFF OMITTED] T3008.091
    
    [GRAPHIC] [TIFF OMITTED] T3008.092
    
    [GRAPHIC] [TIFF OMITTED] T3008.093
    
    [GRAPHIC] [TIFF OMITTED] T3008.094
    
    [GRAPHIC] [TIFF OMITTED] T3008.095
    
    [GRAPHIC] [TIFF OMITTED] T3008.096
    
    [GRAPHIC] [TIFF OMITTED] T3008.097
    
    [GRAPHIC] [TIFF OMITTED] T3008.098
    
    [GRAPHIC] [TIFF OMITTED] T3008.099
    
    [GRAPHIC] [TIFF OMITTED] T3008.100
    
    [GRAPHIC] [TIFF OMITTED] T3008.101
    
    [GRAPHIC] [TIFF OMITTED] T3008.102
    
    [GRAPHIC] [TIFF OMITTED] T3008.103
    
    [GRAPHIC] [TIFF OMITTED] T3008.104
    
    [GRAPHIC] [TIFF OMITTED] T3008.105
    
    [GRAPHIC] [TIFF OMITTED] T3008.106
    
    [GRAPHIC] [TIFF OMITTED] T3008.107
    
    Mr. Horn. Well, thank you very much. We appreciate your 
statement there.
    Another elected official is the commissioner and chair of 
Tillamook County, OR, who has been introduced, the Honorable 
Sue Cameron. I might tell you that I do know where Tillamook 
is; I have been there. I have not only bought the cheese, but I 
had an uncle who ran a newspaper there, probably before you 
were born, but we will talk about that later. OK, Ms. Cameron.
    Ms. Cameron. Mr. Chair, Congressman Kanjorski, members of 
the committee----
    Mr. Horn. You want to bring that microphone a little 
closer?
    Ms. Cameron. Are we OK?
    Mr. Horn. Yes, we have terrible microphones. We are in the 
19th century.
    Ms. Cameron. On. There, is that better now? You can hear 
me?
    Mr. Horn. Yes.
    Ms. Cameron. All right. I appreciate the opportunity to be 
invited to testify today. I came all the way from Oregon for 
this reason, and the reason I did that was because I felt it 
was so important to talk about the role of GIS in our community 
that it was worth the time and the justification from my 
constituents back in Oregon to explain why I came here today.
    It is very, very important, and I would like to put this in 
context if I could. Tillamook, as you know, is the land of 
cheese, trees, and ocean breeze--and sometimes mud up to your 
knees. And that reflects the issues around our community. It 
reflects our timber-based economy; our dairy-based economy. In 
fact, we have more cows than people. And it also reflects our 
tourism--none of which you can build a strong economic base on 
in Tillamook County, and because of that, we actually have a 
number of problems.
    We have a beautiful community, but we also have some 
issues. We have the fact that our fish have been listed as 
threatened and endangered. We have the fact that our streams 
don't meet the water quality standards of EPA and our local 
Department of Environmental Quality. We also have the issue of 
the fact that since 1996 we had $63 million worth of damage 
from flooding, and we have a per capita income of about $18,000 
per year; that is one of the lowest in the State and the United 
States, and yet we try to survive in this process.
    We don't just sit there and take it; we have been planning. 
We have so many plans: we have the President's Forest Plan; we 
have the Department of Forestry Plan; we have our flood hazard 
mitigation plan; we have our land use plans; we have our energy 
plans; we have any kind of plan you want to have. In fact, if I 
stack them up, they are probably taller than I am, and that is 
fine, and it tells us what to do, but our citizens are saying, 
``Enough of planning. Let us get on with it. Let us get the job 
done. We want to see some results.'' And based on that, we took 
an aggressive, assertive approach to dealing with those needs. 
We formed what we call a ``performance partnership'' made up of 
State people, Federal people, local people, citizens, and 
business, so that when we have a meeting, we have 50 entities 
represented in our small county, and people travel to Tillamook 
for those community meetings, performance partnerships. It is 
about partners working together to achieve results. That is a 
critical element, and probably one of the most important tools 
we have is GIS. We need to be able to bring the information to 
people in a way that they can actually understand it and 
visualize it. Our citizens have come to us and asked us for 
more GIS-based information.
    Picture this, if you will: we have watershed councils. 
Citizens that have volunteered their evenings and their 
weekends and their after-work hours to try to fix their stream 
that they care about so that the fish are back and the bacteria 
and the sedimentation are taken care of. So, they sit in a 
meeting in the evening and on the wall is a projector with a 
map of that watershed, and in parts of that watershed you will 
see a green line, and it says, ``These are the best salmon 
habitat areas in that river.'' Unfortunately, the line right 
before that is a different color that shows violation of 
sediment, violation of bacteria, and violation of temperature 
standards. Now, everybody in the room sees that those fish have 
to go through that part of the watershed to get to the best 
part for their habitat, and, immediately, the citizens begin to 
say, ``Well, you know, if we are going to spend our time and 
our energy on this, we are going to put it in this area, 
because it is so obvious. We will work on this culvert; we will 
replant these trees; we will donate some land, and we will work 
on the issues surrounding that part of the watershed,'' And 
that is one application of GIS; it is not the only one. In our 
community, we can apply it in any way.
    We have been lucky enough to develop over 300 layers of GIS 
information through our National Estuary Project, so we are 
able to see those maps now. Our next step is to put it on the 
Internet, so you can see our watershed from here; so you can 
see what we are doing, and we can share it with everybody else. 
We have been involved in this GIS approach, which we believe is 
probably one of the most powerful tools in bringing communities 
together around strategies, because if people can see the 
issue, they can understand where to best put their limited 
resources and their limited time.
    Now, I have included in my testimony, which I am not going 
to go over today, a letter from a citizen. It is one page. I 
would suggest you take the time, and I think you will feel 
probably as I do. That letter is addressed to our Senator and 
copied to us, and I asked for permission to include it.
    I would also suggest that one of the more exciting things 
for our community is to be involved in the Community Federal 
Information Partnership, and I would stress the word 
``community,'' because it really is about partnership, and that 
is an opportunity to be one of six pilots across the United 
States. A little bit of seed money to get our GIS information 
on the web to be able to provide to anybody who wants it to 
have that information, and that seed money has been incredibly 
powerful in our community, and I would like to give you an 
example. Two weeks ago, we had a hearing on our budget. Our 
county general fund budget is all of $13 million, and that is 
not very much, but we had a line-up of people coming to us in 
our hearing, not asking about anything--roads or anything 
else--they were there to ask us to invest in GIS; $200,000 so 
that we can actually do our base map and then employ the kind 
of people to not only digitize the information but analyze it 
and feed it back to the community for decisionmaking. So, our 
community took the chance, and we are approving that budget of 
putting in $200,000 to match with our public utility district 
that is going to put in another $160,000. So, it is about 
leveraging. A little bit of seed money can go a very, very long 
way, and that way, we will be able to address the issues around 
our fish and our flooding and our water quality and our 
economic development.
    So, I would urge, along with membership of NACO--and I have 
submitted a resolution on behalf of the National Association of 
Counties [NACO] asking you to support this kind of work--
community information processes and projects--so that we can 
use GIS as a major infrastructure in our communities, to build 
strong communities, and I thank you for inviting us to testify.
    [The prepared statement of Ms. Cameron follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.108
    
    [GRAPHIC] [TIFF OMITTED] T3008.109
    
    [GRAPHIC] [TIFF OMITTED] T3008.110
    
    [GRAPHIC] [TIFF OMITTED] T3008.111
    
    [GRAPHIC] [TIFF OMITTED] T3008.112
    
    [GRAPHIC] [TIFF OMITTED] T3008.113
    
    Mr. Horn. Well, thank you very much. That is immensely 
helpful. We will have a number of questions about it later.
    The last on this panel is Mr. Lawrence F. Ayers, Jr., the 
project panel member on the National Academy of Public 
Administration Study. Maybe you could tell us a little bit 
about your background, Mr. Ayers, and then go ahead.
    Mr. Ayers. My background--I have 45 years in this business.
    Mr. Horn. That is what I thought.
    Mr. Ayers. I was the civilian Director of the Defense 
Mapping Agency as it came out of the archaic period and into 
the time of satellite and was on the team that wrote the specs 
for GPS. So, I have been around a long time. I left the 
Government in 1987 and have been with industry for the past 13 
years focused on the civil applications.
    I would say, though, that these past 2 years have been 
particularly exciting. I have had the privilege of working on 
the National Academy of Public Administration panels with some 
very distinguished colleagues, and I would suggest that when 
Secretary Babbitt held up that report, you note the membership 
of the people that were on that committee. We had good 
representation from local cities--Eric Anderson; we had 
representation from counties, States, and a good 
representation. But probably more important was that we 
interviewed a host of people. I think if you go back to the 
report you will see all of the different government 
organizations all levels--private sector, utility companies, 
and even some foreign people to get a good grasp of what the 
issue was. I would note, Chairman Horn, that you are a fellow 
of the Academy, so I am sure that you understand the process of 
the panels and the committees.
    Mr. Horn. I have great respect for my colleagues, and I 
only wish I had the time to participate more.
    Mr. Ayers. Thank you.
    The second Academy panel I served on just issued their 
final report, and it addressed the limitations and disclosures 
of spatial data particularly as it relates to disaster, and I 
would like to talk about that a little bit, because we really 
have some impediments in the copyright, privacy, liability, and 
security issues that need to be addressed, and there are some 
significant conflicting laws up and down the line that ought to 
be looked at judiciously to see what we can do with this.
    Over my years, I have seen the transition from the tools of 
making maps to go from, I think, as Secretary Babbitt said, the 
plane table to the satellite imagery, aircraft imagery, and one 
that I would highlight for you. You can't get all the spatial 
information from satellites. You need access to one of the more 
important data sources, i.e., transactional data. That is the 
data that occurs by people transactions daily--changing fire 
hydrants, traffic lights, digging holes, changing utilities, 
and even knowing where the Chinese Embassy is on the map. So, 
this transition has really brought us into the new realm of 
real time spatial information. That is where the action is now. 
The action is real time where you can deal with the spatial 
data in the natural resources, commerce, transportation, all of 
the areas that are terribly important and particularly in 
national disasters.
    We talked a little bit about standards, and if you will 
allow me just a minute, I would like to talk to that. GPS, 
whether you realize it or not, really has set the national 
standard for the geodetic framework of this Nation. Now, today, 
if you go across this Nation, you are going to find a lot of 
data on different projections; each county and town typically 
puts their spatial data on a flat projection. But GPS operates 
on a projection that approximates the Earth's shape, and 
whenever you make the transition from a GPS position to the 
local datum, you are going to introduce a certain amount of 
error, but over time, I am impressed with the fact that people 
are beginning to describe land parcels with GPS coordinates; 
the users are beginning to locate the utilities with GPS 
coordinates; in fact the public has accepted GPS. So, it has 
become one of the basic frameworks. The second issue that has 
been talked about is the need for common definitions of 
features and attributes so the people, when they share data, 
recognize that their descriptions have some similarity. 
Finally, the need to document the source and quality of the 
data.
    Now, the Academy panel addressed these areas in the two 
reports. I have the summary of the second report, which I think 
was submitted to the committee for the record. I would like to 
make a few comments. I think Secretary Babbitt did a superb job 
of highlighting what the recommendations were of the first 
report, and I would like to make a couple of comments. One, is 
we really did feel that the Congress ought to address a 
statutory base for a national spatial data infrastructure 
[NSDI]. Today, we are operating on a Presidential order, but I 
think it is probably more important--and we all agree--that it 
should have a congressional statutory base on it.
    Second, the panel really urged that we have a truly 
National Council, the panel wrestled with that concept for a 
long time. The panel felt that the Federal Government had been 
doing a pretty good job reaching out, but there was not 
ownership at all levels by all stakeholders, and we felt that 
if there was a level playing field when everybody came to the 
table, and they spoke with equal authority and equal 
accountability; that a National Council was the way to go. We 
spent some time in the report describing that. Third, in the 
area that I have just described to you, the fundamental base to 
which all spatial data sits in--the GPS coordinate system, the 
shape of the Earth with its elevation data, the photography 
from which data is extracted--is spread all over the Federal 
Government, and we felt that there ought to be a single focus 
that is concerned with base data along with a national data 
clearinghouse. You should be able to go into any library or to 
any computer and ask by name or coordinate for spatial data and 
the system should tell you where it is, who has it, how much 
you have to pay for it, what accuracy is it, and who do I 
contact to go get it?
    The fourth area that we addressed was the area of multi-
level partnerships. I think that has been discussed very 
heavily. I would make one point. About 90 percent of the data 
for the national spatial data infrastructure is created at the 
local level. It is not created at the Federal level, and the 
fact that the local level is where information is credited and 
that the local level is where the transactions are occurring 
which will keep the data current--you want current data, so 
when you tap into data to make a study, you don't want data 5 
years old, you want current data--found that we--and the 
Federal agencies do projects using local data. We feel very 
strongly that the partnership is the right way to go and that 
the Federal agencies are in fact supporting the local people, 
because they are tapping into the local data for analysis and 
decisionmaking.
    Mr. Chairman, I think that pretty well summarizes my 
thoughts. We would encourage you to support the current budget. 
We think the budget support for the matching funds and 
partnerships is the right way to go, and we would also 
encourage that some of the other Federal agencies need a 
similar program. Your committee might take a look at this need.
    Thank you, and I would like to answer any questions you may 
have.
    [The prepared statement of Mr. Ayers follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.114
    
    [GRAPHIC] [TIFF OMITTED] T3008.115
    
    [GRAPHIC] [TIFF OMITTED] T3008.116
    
    [GRAPHIC] [TIFF OMITTED] T3008.117
    
    [GRAPHIC] [TIFF OMITTED] T3008.118
    
    [GRAPHIC] [TIFF OMITTED] T3008.119
    
    [GRAPHIC] [TIFF OMITTED] T3008.120
    
    [GRAPHIC] [TIFF OMITTED] T3008.121
    
    [GRAPHIC] [TIFF OMITTED] T3008.122
    
    [GRAPHIC] [TIFF OMITTED] T3008.123
    
    [GRAPHIC] [TIFF OMITTED] T3008.124
    
    [GRAPHIC] [TIFF OMITTED] T3008.125
    
    Mr. Horn. Well, thank you. Those were very pertinent 
comments.
    As I have listened to all of you this afternoon and when 
Mr. Kanjorski and I are trying to piece a bill together in this 
area, one thought comes to mind is that we need a data room in 
Congress, and we might put it over in the Library of Congress 
or we might use a vacant hearing room around here, and any 
Member could come in and see what the impact of some particular 
point of coordinate and all that would be on that Member's 
district, and I think that would be very useful information.
    The President ought to have a similar type of room. They 
have a war room down there for national security affairs, and I 
remember Senator Humphrey and I, 25 years ago happened to be on 
the same TV show, and he and I agreed that there ought to be. 
The President is not very well served by the data that is 
relevant to what a President needs to deal with and that he 
ought to have that kind of a, ``war room,'' ``peace room,'' 
whatever you want to call it. And under Franklin Roosevelt, it 
was there. The management group in the old era of the budget 
has just been decimated the last 20, 25 years. It has all 
become much more politicized. As I remember--I hope I am right 
on this--that it was an uncle of the President, Delano 
Roosevelt, that headed the national, sort of, physical planning 
operation under the Bureau of the Budget or within it--it was a 
national council--and that made, to me, a lot of sense when I 
was a student coming in 50 years ago, whatever, and we have 
lost all that, and I am very interested in what Mr. Kanjorski 
has asked us to do, that it makes a lot of sense to me, and it 
makes sense to anybody that is a practitioner, because you need 
those data just as the elected Members here want with examples 
of seeing how we can use those data in solving very 
controversial problems sometimes. But when you get the right 
data out on the wall, most people are pretty reasonable and 
say, ``Yes, that makes sense to me.''
    Let me ask you, generally, all of you as what are the 
privacy or intellectual property issues that act as a barrier 
for public and private sectors to share geographic information 
and form effective partnerships? What can you tell us about 
that? Let us start with Mr. Bills.
    Mr. Bills. Well, I think one of the, I guess, sort of, 
central limitations is the number of Government agencies who 
undertake in many cases quite extensive and expensive efforts 
to create partial data bases, have sought to recoup many of the 
costs associated with that, and, so, as a result, some of the 
costs are quite high in southern California. Los Angeles County 
and some of the other counties actually charge about $2 a 
parcel to local jurisdictions for that parcel data. If you are 
a city the size of Long Beach, for example, that is quite a 
substantial investment, and it really does inhibit the ability 
of local government to have access to what for most cities is 
really the central building block of their own GIS systems. 
And, so, again, that is where I think we need to sort of have 
pooling of resources so that we can actually share that data 
among a multiplicity of agencies. We want to make sure that the 
public is getting the most for its public dollars.
    Mr. Horn. Mr. Sweet, any thoughts on this?
    Mr. Sweet. I think two very, very quickly. One is that most 
of the local government officials in our region have seen this 
as a gold mine--and they have used those words; that they now 
have this data----
    Mr. Horn. Get the microphone a little closer.
    Mr. Sweet. I am sorry. I think many of the local officials 
in our region have seen this is as a cost recovery mechanism, 
and now they are trying to sell data which you can go to the 
courthouse and get for free on paper, but, now, to put it on 
the web or to put it into some digital format seems to make a 
different kind of data, and it seems to make it something that 
they want to recover costs for.
    The other fear is that--and I think education can largely 
take care of this--is that information that is used in 911 
dispatching and other types of activities that the courthouses 
are obligated to provide will become mixed in and then flow out 
in an unrestrained process. And I think in our area, largely, 
education has been able to deal with those issues.
    Mr. Horn. Ms. Hall.
    Ms. Hall. In our area, we have elected officials that are 
very concerned about the whole privacy issue around this data, 
because when you build a parcel map, you have all information 
about that particular household. What we are doing is we are 
doing a partnership or we are looking at developing a 
partnership with the private sector that the citizens can 
benefit by having this through--same-day bank loan approval, 
title searches done on the same day--so we are showing that 
from a--I hate to use the word ``commercialization''--but to 
their benefit that their lifestyle, what their needs are will 
be enhanced by having that, and that is really the balancing 
act that we have been trying to address on this issue.
    Mr. Horn. Commissioner Reinhardt.
    Ms. Reinhardt. Well, Minnesota laws governing the data 
privacy and the intellectual property cost recovery were 
recently reviewed by the Information Policy Task Force and a 
report was presented to the 1999 legislature. There were 
several recommendations that were made in there, including many 
that were just plain common sense and others that were very 
controversial, specifically, those relating to cost recovery 
and indicating that the data that was being collected at great 
cost to the counties and to the local units of government had 
no commercial value, and, therefore, had to be simply provided 
for free. That is something that was not presented during this 
legislative session, but we are really going to deal with that 
issue of what is public free data and what can be charged for 
especially when you look at, again, the cost of collecting that 
data.
    Mr. Horn. Commissioner Cameron.
    Ms. Cameron. Mr. Chair, I would agree with my previous 
colleagues on this issue. It is something that we are still 
exploring. I would give you a couple of examples, one of them 
being, as we start to look at our watershed, we look at the 
private timber ownership areas, and there is certainly some 
concern by the private sector that this information might be 
used to show violations. We are trying to focus the energy and 
the information more on what will they be able to achieve and 
how can they better provide and get to the same results--better 
riparian areas--but it is in their interest, as well, as we do 
have some good partnership there, but it is a threat that 
sometimes if there is too much information out there, it may be 
used against them.
    The other privacy piece comes with any kind of situation 
where you are dealing with Government information when you have 
agencies that may know quite a bit, particularly when you deal 
with social service issues, that there has to be some walls 
there where some information is accessible for those people 
that are dealing with families, particularly specific around 
health or mental health issues, and it might be within the 
purview of the agency information, which is already in the 
purview of the agency, but to not let that information out to 
the general public, and those kinds of things are where the 
real discussions are happening.
    Our county tends to believe that it is very important to 
provide services to people in the community, and, therefore, it 
is a fine line between just keeping the costs of monitoring and 
the updating the system as well as trying to make sure that 
people have access to that information. So, it is still in the 
works for major discussion.
    Mr. Horn. Mr. Ayers.
    Mr. Ayers. Sir, I would say that it is like peeling an 
onion back. The more we studied the spatial data needs, the 
more we found. We did make an observation that I think is 
worthy of consideration. When you are dealing with disaster or 
catastrophe information needs you start dealing with privacy, 
copyright, liability, and security issue a little bit 
differently than for the general utilization of data. For 
example, elderly people, homebound, are not particularly 
excited about that being general information, but they are very 
concerned that they be looked after during emergencies. So, 
there have been some very cogent observations about a national 
security network or a national disaster network which would be 
like an intranet that would be able to have more information 
than you have in a general system.
    The other observation I would make is that utility 
companies during disaster have been reluctant to share data 
because of the liability. I was speaking with the Wyoming 
Governor during this conference, and he made the observation 
that the Governors can in fact indemnify utility data during 
crises. Maybe this should be considered as a solution. The 
Academy report recommends that more study be undertaken.
    Mr. Horn. Let me just ask one more question, and then Mr. 
Kanjorski can have the rest of the afternoon. You have 
mentioned pilot programs, demonstration programs, and some of 
you said, ``Why don't we let the relevant Federal agency that 
knows more about this category.'' I would be interested in any 
thoughts that you have as to what kind of categories are needed 
to make sure that this system is relevant to the client, 
namely, you that are at this table who would have great need 
for it? Members might, executives might. Can you give me a 
little guidance on that? Mr. Bill.
    Mr. Bills. I guess I am a strong advocate of a project 
level approach; that is, that I think individual projects 
really determine the particular expertise that are required, 
and I think everyone that comes to the table with particular 
projects bring their own particular expertise so that I think 
in some cases, the Federal Government can play stronger roles 
and others perhaps a more subsidiary role to some of the local 
or regional agencies. But, again, I think it is very important 
that we do help facilitate across the country these types of 
partnerships. I think we have some wonderful examples today, 
and we really should be having this across the country, and I 
think there should be a much more aggressive involvement of the 
Federal agencies in these, but, as I stated in my comments, I 
think that we all gain from that. I think the Federal agencies 
can gain, because they will learn. I think we, on the local 
side, can also, and so----
    Mr. Horn. Now, do we have projects underway from Federal 
agencies that are represented on the committee that Secretary 
Babbitt Chairs? Are some of these occurring now within their 
current budgets?
    Mr. Bills. There are, I guess I would sort of urge strongly 
that there be an even stronger emphasis. I think that there are 
still enough examples in which Federal agencies have not been 
able to participate with the regional or local agencies for a 
variety of reasons. I think that really is the approach that we 
should take to make sure that we eliminate some of the 
redundancy in data collection, because data is very, very 
expensive, and I think, as was ably pointed out, it really has 
tremendous value to the community.
    Mr. Horn. Mr. Sweet.
    Mr. Sweet. If I had a single pot of limited resources to 
invest in trying to address the problem, I would try to address 
the problem toward coordination and education. I think that the 
duplication that we are seeing oftentimes is in the best 
intention. We simply don't know that ``it'' is has already been 
done or ``it'' is about to be done. In the latter of that case, 
where we can be timely enough to determine that ``it'' is about 
to be done, can yield some very significant savings which then 
can be rechanneled into other types of projects that would be 
used to increase the impact of the coordination activity.
    Mr. Horn. Ms. Hall.
    Ms. Hall. I think from our perspective, our frustration is 
we don't know everything that is being done at the Federal 
level. We just know bits and pieces of what is being done, and 
it is not being done in a coordinated fashion, and it is not 
being communicated in any shape in terms of a clearinghouse. 
And then we see at our local level that even though the feds 
have a map, we have to rebuild that map so that it has the 
accuracy that we need, which is 1 to 2 feet as opposed to the 
Federal map whose accuracy is 35 to 40 feet. But the Federal 
agencies need our data, and they need our--I mean, we have IRS 
agents that sit in our registered deeds office, five of them, 
every single day, to do nothing but look up information on our 
parcel information. That is all they do, and if we had some 
cooperation where they would help fund our parcel map or help 
in terms of our partnership, they could be linked to directly 
at the IRS building instead of sitting in our offices. HUD is 
very interested in terms of--we have 70,000 vacant parcels in 
Wayne County, not just vacant, but parcels that have been 
turned over to the State of Michigan; 70,000 out of our 
900,000. HUD needs that information, and wants that information 
to redevelop those properties to put homeowners in it or to 
tear them down, because they are blighted. So, I think the 
whole concept of partnership from the local level on up through 
consensus is really the best approach.
    Mr. Horn. Commissioner Reinhardt.
    Ms. Reinhardt. Well, I agree. I think that there are 
certainly lead agencies across the Federal Government that can 
assist with the collaborative efforts that are taking place 
around the country. We need to know is there an inventory of 
what services are--what is taking place right now so that you 
know where you can go and tap into those services, and the 
Federal Government or the lead agency at the Federal level 
knows where they can get information from us to avoid 
duplication of efforts. And, I think strong support for the 
collaborative working together is really the key.
    Mr. Horn. Commissioner Cameron.
    Ms. Cameron. I would suggest that being one of the pilots 
that Secretary Babbitt Chairs that we were just awarded, we 
were excited. In fact, the opportunities of sharing information 
and trading information back and forth is phenomenal. We are 
actually going into a partnership right now with the Lackawanna 
Susquehanna partnership to work with us in Oregon to do some 
more work around the watersheds. It is a drop in the bucket, 
and it is a starting point, and we become very good at sharing 
best practices within a small cadre of pilots. We need to bring 
that beyond, and I think the Federal Government can play a 
wonderful role in helping us do that. You have got pilots in 
FEMA for Project Impact that realize there are other projects 
that are doing the other work, and you start to bring them 
together, and that is the role that you can play to help us.
    But probably one of the most frustrating pieces for local 
county government, if you really want to take this full scale, 
is those base or parcel maps. It is an investment. When I 
talked proudly about the $200,000 we are investing, that is at 
the expense of a vehicle reserve fund or our contingency fund, 
and those aren't easy locally. I think that it is incumbent 
upon us to provide good information for everybody in terms of 
maps, but I also think that the Federal Government can assist 
local government in helping us do that in a cost share way that 
makes sense. Currently, in Oregon, our Department of Revenue 
does cost share those base maps with us. We still have to come 
up with half money, and that is where it gets very difficult, 
but it is an investment, and so you have to shift money, and so 
it is a balance, and I guess, if you really want to take this 
full scale and you want to make this work throughout the 
community at the right standards that we can agree on and the 
right resolutions so it makes it all tie together, it is 
assisting in that very basic portion of those maps that 
counties need.
    Mr. Horn. The grant you received was what? About $250,000?
    Ms. Cameron. Actually, it was about $100,000.
    Mr. Horn. $100,000. Was a match required?
    Ms. Cameron. It is in-kind match, and that is the only way 
we can participate. If it is hard dollar match--and I can give 
you an example of an Army Corps of Engineers study we are doing 
right now that needs $700,000 for Tillamook County to do a 
model to help us deal with the flooding--we can't raise that 
kind of money through donations from our community or our 
budgets. So, the hard cash dollar match is something that puts 
us all in a very difficult situation.
    Mr. Horn. Well, you have given some good examples.
    Mr. Ayers.
    Mr. Ayers. I guess I would just make a point that it is a 
savior and a curse. In one way, when you have different 
Government agencies doing projects, the projects get very 
focused, and the data is collected only for the project, and it 
isn't considered as part of a national or a local general 
purpose data source, I think Mr. Sweet and the Honorable 
Cameron make that point. Now, I think that Secretary Babbitt 
and the FGDC and I believe that this National Council could put 
the emphasis that is needed to have projects collect data to 
national standards. It is going to be for integrating lots of 
activity as opposed to a single stovepipe projects.
    Mr. Horn. Good. Well, I am now going to yield the rest of 
the day to my colleague from Pennsylvania, Mr. Kanjorski, and I 
will relax.
    Mr. Kanjorski. Thank you very much, Mr. Chairman, and I am 
sure we are not going to take the rest of the day.
    So many good issues were brought out here. Let me just 
refer back to something that you brought up--privacy. I went 
home this weekend to Pennsylvania and much to my chagrin, I 
discovered that the Commonwealth of Pennsylvania was 
negotiating to sell the private information off unemployment 
compensation forms, which would disclose 80 percent of the 
incomes, the dependents, and some of the most private 
information in terms of personal affairs of Pennsylvanians. 
About 80 percent were being sold outright. And, so I heard one 
of the panelists say, ``Well, there is some material that is 
available, so it should be free and other material is gathered 
and cost something,'' so there may be a return for proprietary 
interests in there, but I want to caution that some of this 
material is private, and no one really deserves it, and Ms. 
Hall scared me when she talked about the five IRS agents 
sitting in there, and if we gain the reputation that that is 
another forum that is big brother is in, we will be in great 
difficulty.
    In listening to the overall testimony, I would--and I think 
everybody agrees--that we need the national protection to 
examine privacy, and whatever those standards are they should 
apply at the national level, the State level, and the local 
level. Is that correct? There is no disagreement; that is just 
generally across the profession? I think the County 
Commissioner Cameron made a good point of the need for a 
clearinghouse. We are constantly reinventing the wheel.
    I happen to be more sensitive to these things in talking to 
my county commissioners, not only in my congressional district 
but across the State, and maybe I will use them as an example, 
so you won't be embarrassed, but I will say I am more in their 
camp than in others. I find GIS is starting to become ``a sexy 
issue'' for sort of being a techie, but nobody in elected 
office seems to know anything about it. When they are putting 
out a contract, they are trying to hire some consultant that 
will come in and tell them that they are going to cure all 
their wonders and do it well within a certain budgetary 
constraint, but the specifications of the contracts and what 
should be gotten and how it should be put together or what it 
should serve, the elected officials making the decisions are 
almost absent of that basic information. Do you find that to be 
correct up and down the line?
    Mr. Horn. The record will note the panel is nodding their 
heads. [Laughter.]
    Mr. Kanjorski. I can say Mr. Sweet came to my attention 
based in Pennsylvania on that very subject. We have this 
horrible problem of 2,500 communities in Pennsylvania and are 
always in the process of trying to get them organized in some 
way. In my congressional district, I have 176. Unfortunately, I 
don't have room large enough to meet with all my mayors and 
councilmen in the entire district, which shows you the problem 
in Pennsylvania. I would say probably 70 to 80 percent of these 
people have absolutely no idea as to how to go about writing 
the specifications for the GIS system. What Tom basically did 
was interact local communities, county governments, State 
programs, Federal programs to do a regional system, and it 
shows the interaction and multiple cooperation. That brought 
him to my attention. He has now assumed a role of being one of 
the six models of the Vice President's project across the 
country, and they will be now cooperating with Oregon and other 
States like that that are named that way.
    I think the Commissioner makes a good point, even though we 
have a forum like this where we bring 300 or 400 people to 
Washington where they find their way here and they talk, they 
are energizing, but the rest of the country out there really is 
not anywhere near the standard of knowledge or information that 
these folks before us have, and yet the ideas that have spun 
out over the last 3 days, Mr. Chairman, really make your mind 
boggle as to what the possibilities are; what can be done; what 
correlation and, therefore, identified possible causal 
relations can be identified? What profiles can be established 
to indicate either problems with salmon or forests or the need 
for education or the county commissioner has discovered how to 
prevent child pregnancy? I do not mean to be facetious in that 
way, but just by identifying the numbers, she was able to get 
the community involved to understand they had a problem that 
they had to address and what simpler way to do that?
    That would give us approximately 10 more minutes before we 
have to go and vote, I suspect. So, I am going to ask the 
members of the panel to make whatever observations you wish in 
terms of about a minute apiece, if you can, in what did you 
gain from this forum? Where is GIS? What would you like the 
Congress to do if you had your wish? What should we do to 
participate, to help facilitate, to help partnership, and to 
help open the doors? Whatever you individually have concluded 
after your use or study of this?
    Mr. Bills. Again, I--with danger of flogging my horse 
here--I think whatever we can do to encourage partnerships 
between levels of government I think is quite critical, and I 
think that that really is one of the most critical roles that 
this committee could play to ensure that the various Federal 
agencies and States and regional and local agencies do come 
together so that we can most effectively take advantage of the 
technology. Another point, really, is that we do need to have 
advanced mechanisms so that we know when other agencies are 
going to be preparing data so that we don't engage in 
duplications. So, how can we know if, for example, USGS is 
going to undertake a study in 6 months and that they will 
actually be doing digital orthos for a particular area? So, 
ways in which we can communicate this information within the 
communities so that we can avoid this duplication, I think is--
well, it is, actually--we currently have spatial data catalogs, 
so we already know--we have ways of knowing what data has 
already been produced, but we don't have good mechanisms as to 
knowing what data will be produced in a particular time period, 
and I think that that would also serve to help reduce some of 
the duplication.
    Mr. Horn. When Mr. Kanjorski finishes his questioning, he 
has to vote. I am going to vote to keep this thing going, so 
this panel will be through when he finishes his line of 
questioning, and then the third panel we will bring up next. 
So, I will try to be back in 10 minutes.
    Mr. Sweet. I am excited I think, first and foremost, what I 
would do is applaud your efforts. We now have GIS moving from 
obscurity to the forefront in being recognized as something 
that is going to have a significant impact in the way we manage 
our Government and the way we compete in the 21st century, and 
I hope that we can keep that in the forefront and not let it 
fly back into obscurity. On the other side, I think that the 
key to the success that we had in organizing nine counties, a 
dozen different boroughs and municipalities was that we were 
able to guarantee their independence while still getting them 
to work toward regional cooperation, and I think the guarantee 
of independence is what continued to bring them back to the 
table. I also think that the guarantee of independence at the 
local level was a significant if not the most significant fact 
in our ability to leverage the Federal investment dollars on a 
10 to 1 ratio. That effectively enables you to fight your match 
problems. When you need it, projects with--when you need hard 
match, you can get it more readily when they think they are 
investing in their future, their own future, not somebody 
else's idea of what they should be doing, and those are the two 
things that I would concentrate on.
    Ms. Hall. I am going to take a different stand. I think one 
of the things that this committee and you, as Members of 
Congress, could help do is educate your colleagues, because 
they know the value of GIS and what it does for them and their 
constituents, then they are out being the cheerleaders for 
this. I mean, right now, it is just a small group of people, 
and there are some elected officials that know the value of it. 
But it is how do you communicate that on a continuous basis, 
because the synergy that you develop from that and the 
excitement and then the support you get maybe from the 
Transportation Committee and in the Judiciary Committee and of 
course the Appropriations Committee, and that brings the value 
to all of us in what we do in the different aspects of 
governmental services that we provide. So that is one.
    And, two, I still want to go back to somehow of a 
clearinghouse or a way that we at the local units know what the 
Federal Government is doing in terms of GIs. There are some 
that may know that, and I am not a technocrat; I am a higher 
level administrator, so I am not aware of it. If there is an 
easy way to get that information out to elected officials, I 
think that is important.
    Ms. Reinhardt. Yes, and I agree with that, as well. I think 
the most important thing that needs to take place is the 
definition of what the benefits are, and it is not just at your 
level but also at the local level. When I go to my peers on 
county boards in Minnesota, when I talk about GIS, I, first of 
all, have to say exactly what GIS means and then talk about the 
benefits that can be accrued to them by participating in the 
data sharing and what it really means to them in their 
programs; what it means as far as health, and tracking--we had 
a recent case where there was mosquito-borne encephalitis, and 
we were able, within hours, to track down exactly where the 
problem was and to isolate and to talk to the people in that 
neighborhood so that they knew what was going on. That would 
have taken a week prior to metro GIS being in place. So, we 
need to make sure that people understand those benefits. When 
you get that understanding, then you can go after and be, I 
guess, more successful at forming the partnerships, at getting 
the financing in place, I touched on briefly the idea of the 
bridge financing, and I think that that would be critical from 
the Federal level. If you can get us started, you can get us 
established so that we can then show people what the benefits 
are, it will take off on its own. It will be a benefit all the 
way across the board, from cities, counties, State, Federal 
Government, and the private sector, as well.
    Ms. Cameron. I would like to agree with everything that is 
said, because there is no point in repeating that, but what I 
would say is when you talk about that match piece, the costs 
are fairly fixed, but the communities' ability to respond to 
those costs are not fixed, so there needs to be some way to 
look at how does a community, such as ours, one with the same 
kind of model as Napa Valley, CA, meet that match that has just 
become such a barrier. So, I would suggest any work that is 
being done in dollars, deal with that match.
    And the last piece that I would suggest is that I heard 
some discussion about the appointment of a council, and I would 
highly recommend that. I think that is a very good approach to 
getting a sense of where to go from here, and that is involving 
local communities on that council, whether it be cities, 
special districts, counties, and the Federal Government as well 
as State and our private interests, as well, because I think 
that will help us delineate which strategy to pick first and 
get the support around that.
    Mr. Kanjorski. Ms. Cameron are you suggesting that having 
to come up with $750,000 for a Corps of Engineers study may be 
impossible whereas the same type of study and the same type 
cost for Napa Valley or Los Angeles is minuscule? Would you be 
in favor of the Congress looking at something like a graduated 
local share contribution?
    Ms. Cameron. Absolutely.
    Mr. Kanjorski Maybe taking unemployment income tax base 
into consideration?
    Ms. Cameron. Absolutely, and I would give weight to in-
kind, because there is a lot of things communities can generate 
on an in-kind basis that we cannot generate in hard match, and 
when I talk about that $700,000, that is over a 3-year period 
of what we would have to pay on a $3 million project to do the 
hydrodynamic flood model to help us mitigate the damage of the 
flood.
    Mr. Kanjorski. I think that is a decided disadvantage to 
small communities and less dense areas of the country. I also 
notice, throughout the rural areas of Pennsylvania, it is the 
same problem.
    Ms. Cameron. Right.
    Mr. Ayers. I would just add one thing: I think the council, 
the idea of a national council and the area that you really 
didn't talk about is the private sector. I have seen where 
utility companies have joined in partnerships--PG&E in 
Baltimore, Commonwealth Edison in New York--in these regional 
studies and are quite willing to participate with money and 
efforts, and I would also say that many of the vendors are 
putting out pilot projects to get people started in using 
digital spatial data at no cost to get local governments to 
understand the benefits. So, I think the idea of a national 
council where the private sector is at the table is going to 
bring a lot of assets that you hadn't thought about before.
    Mr. Kanjorski. This is an interesting technology that it 
has so much private involvement at this point. Usually, the 
Government goes out and manufacturers something or starts 
something or creates something that takes many more years 
before--it seems to have a tremendous amount of private sector 
involvement at this time and helpfully--we live by these damn 
things.
    Rather than try and squeeze any more questions, I am going 
to head over, and I just wanted to say, again, thank all of you 
on the panel for coming forward. I think you are doing a great 
service for this whole idea and this whole technology, and even 
though a lot of colleagues are not present today, do not be 
surprised, because they never are. These subcommittee hearings 
are usually one or two people, and, very often, just the 
chairman, if I may say. He has indefatigable abilities to spend 
time in doing issues like this, but a lot of this material does 
get read. It gets highlighted, and the staff people turn it 
over, and the thought process is started. I would say you have 
made an invasion in the Washington city, and that is good. Now, 
you can help me, and you can help my other colleagues that will 
become interested in this in asking at least the questions. 
Just keep calling and say, ``Do you remember, Congressman, did 
you take care of that GIS yet?'' He will think it is a disease 
or something. [Laughter.]
    I will prep the attending position, and then he will reform 
over to us, and we will have him caught. So, you can be very 
helpful that way, and I know so many people who are with the 
conference are here. It is just great to see you here.
    With that, I am going to recess the Chair subject to the 
return of the chairman so I can go and vote. Thank you.
    [Recess.]
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology will reassemble, and we will swear 
in the third panel.
    Panel three come forward. It is Mr. Jack Dangermond, 
president, Environmental Systems Research; Mr. Jerry Miller, 
senior vice president, chief information officer, Sears Roebuck 
& Co.; Mr. Bruce Cahan, president, Urban Logic, Inc., and Mr. 
Jack Pellicci, vice president, Global Public Sector, Oracle, 
based in Reston. And I have a feeling that I might have 
murdered your name, so correct me.
    Mr. Pellicci. Pellicci.
    Mr. Horn. Pellicci, yes. You can see I didn't learn 
phonetics very well.
    All right. I think you have been here, so you see what 
other panels have done. When we introduce you, your full 
statement is automatically in the record, and we are going to 
swear you in, because we swear all witnesses in.
    So, if you would stand and raise your right hands, we will 
do that.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note all four witnesses affirmed 
the oath.
    And we will start just on the way it is on my agenda, which 
begins with Mr. Jack Dangermond, president, Environmental 
Systems Research Institute, Inc. We are glad to see you here.

STATEMENTS OF JACK DANGERMOND, PRESIDENT, ENVIRONMENTAL SYSTEMS 
 RESEARCH INSTITUTE, INC.; JERRY MILLER, SENIOR VICE PRESIDENT 
   AND CHIEF INFORMATION OFFICER, SEARS ROEBUCK & CO.; BRUCE 
 CAHAN, PRESIDENT, URBAN LOGIC, INC.; AND JACK PELLICCI, VICE 
            PRESIDENT, GLOBAL PUBLIC SECTOR, ORACLE

    Mr. Dangermond. Chairman Horn, thank you very much, and I 
appreciate the chance to talk with you for a few moments. I 
also want to thank you and your committee members for 
recognizing the importance of GIS and geography in governing.
    I have a few comments, the first of which will be on the 
industrial applications of GIS and the GIS industry in general, 
and then a few comments on the compelling reasons in public 
sector and also in the university research community of why 
this is an important technology, and then I will conclude with 
a few comments about notions of Federal policy that I would 
like you to consider.
    I am head of an organization that is about 30 years old. We 
build software. We have about 100,000 users. We are a small 
company relative to the software world; we are about $300 
million, but that business drives about $10 billion of value 
added data software, hardware, application work, et cetera.
    My comments that I want to make first are about the GIS 
industry. This is a growing industry, about 20 percent a year, 
and in that sense it is an American industry--almost 95 percent 
of it is American-based technology--and it drives not only 
these roughly $10 billion of expenditures around the world each 
year, tools, and value added business, but it also has an 
enormous impact on business and also the public sector, and it 
is starting to show evidence of having an impact on the 
university and the research education community.
    There is about 2,000 maybe 2,500 businesses in America, and 
they are located in almost every State that engage activity in 
what we would call GIS business. There is also about 2,000 
community colleges and universities who are preparing America's 
work force for the use of GIS or the embedding of GIS in their 
work practices, and so it is a vital, growing effort.
    Mr. Horn. Amazing figure, because there is about 3,000 
institutions, and you are saying two-thirds are really involved 
in this?
    Mr. Dangermond. Yes.
    Mr. Horn. Well, that is good news.
    Mr. Dangermond. It is really good news.
    Mr. Horn. Then we just have to deal with the other 1,000.
    Mr. Dangermond. Yes.
    Mr. Horn. Interesting. Go ahead.
    Mr. Dangermond. Or not.
    The compelling reasons for the use of GIS in the public 
sector have been already articulated by my colleagues that 
presented earlier, but, generally speaking, they result in 
better decisionmaking, sometimes better policy, certainly 
better communication between the public sector and the 
community that they serve in the form of a visual language, and 
I like that idea, the idea that Government can be linked with 
the public they serve through this visual language called maps 
and geography.
    I have come to the conclusion that GIS is a kind of social 
capital much like highway infrastructure, and I think it is 
useful to consider it in that context when we talk about 
building and investing it. It is a kind of social capital that 
actually all levels of government develop and work with and 
use, and this social capital is interesting because it is so 
shareable and has the implication of coordinating different 
levels of government in their work but also overlapping 
government on the private sector and also on the university 
research and education community to get sort of three for one 
but actually thousands for one investment in the data. In other 
words, it can be highly leveraged, and that, perhaps, is why 
there is such an enthusiastic following in the use of these 
tools and kind of visioning of what it might mean for our 
society. We will certainly have a great role to play in the 
global society, and it will show up quite strongly as the 
information society emerges.
    In the private sector, I would like to make a couple of 
comments. My colleagues in the other firms will also reinforce 
some of these notions, I am sure. Currently, about half of the 
software that is being acquired in this field is by the private 
firms--oil companies, forestry companies, transportation 
companies--for improving their operations and also improving 
their decisions. They are able to cite locations of public and 
private facilities; they have made massive improvements in 
delivery systems, supply chain automation across geography; 
improved marketing so that the right products are being 
delivered to the right audiences; facility planning, natural 
resource management, and so on and a new one in agriculture--
this is very valuable.
    American business is becoming more competitive, one might 
say, because of the investments not only in the technology but 
also in these data sets, and the linkage between Federal data 
and many of these businesses in agriculture and transportation 
will be better articulated by some of my colleagues, but they 
are showing up as resulting in, perhaps, 10 or 15 percent 
greater efficiency that brings money back to the Federal 
Government and better tax rates or more tax collections, but it 
also improves much of the other public agenda items, like less 
transportation problems and so on, because of the adoption of 
these tools in the private sector.
    Finally, I would like to conclude with a couple of comments 
about suggestions for a Federal program. Obviously, Federal 
mapping programs matter for the organizations and the 
institutions that build this infrastructure, at least at the 
Federal level. In evidence of them being cut back or problems 
with them or in the public press in Kosovo, that is a public 
one that the same kind of disasters or lack of investment in 
this infrastructure are showing up in lots of other ways; we 
are just not conscious of that.
    So, my first point is, please, as the Napa study suggested, 
continue to invest in this investment; it has profound effects. 
Second, this should be a multi-department and multi-use and 
multi-mission coordinated effort, not simply one application. 
Third, there should be changing in the mapping programs' 
philosophies from mapping to data bases which are continually 
updated and used and shared. Fourth, Federal data must be 
continuing to be freely available, because it is a backbone 
for--this social capital is not only a backbone for other 
levels of government but also for the private sector and the 
university community. Fifth, we have invested roughly $1 
million or $1.5 million through NSF in the last few years, for 
the last 15 years, as we have witnessed the growth of this 
industry from $50 billion to $10 billion. It is a pittance, a 
million or two a year. We need to increase the academic 
research funding maybe to $50 million or $100 million a year. 
Imagine the results that would happen, not only in the public 
sector but also in the private sector. This I encourage you to 
consider, and the support of the cooperative programs, like we 
have already heard, brings real results, and that should be 
done in a deliberate way supporting initially demonstration 
projects leading to more infrastructure development as it 
evolves.
    Thank you, Chairman Horn.
    [The prepared statement of Mr. Dangermond follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.126
    
    [GRAPHIC] [TIFF OMITTED] T3008.127
    
    [GRAPHIC] [TIFF OMITTED] T3008.128
    
    [GRAPHIC] [TIFF OMITTED] T3008.129
    
    [GRAPHIC] [TIFF OMITTED] T3008.130
    
    Mr. Horn. Well, thank you. I appreciate your perspective on 
this.
    Mr. Miller, the senior vice president, chief information 
officer, Sears Roebuck & Co.
    Mr. Miller. First of all, Mr. Chairman, I would like to say 
that I appreciate the opportunity to talk about this very 
beneficial technology.
    Sears Roebuck & Co. is not a GIS company. We are a 
retailer, but not unlike most companies in this country, we do 
have objectives to reduce costs and improve customer service, 
and when you find a technology that enables you to do both 
simultaneously, you have a real win. And that is what we have 
found with this technology, and I am going to reserve my 
comments to address what Sears Roebuck has done with this 
technology.
    We used it primarily to address our home delivery. We do 
sell quite a few appliances in this country, and most of those 
are delivered to the home--about 20,000 to 25,000 a day--and 
several years ago, we set out to try to not only reduce our 
costs in that endeavor but also improve our customer service 
ratings. At the time, we had about 43 different distribution 
centers that we used to deliver this merchandise to our 
customers, and we had not the best customer satisfaction in 
terms of our ability to deliver on time. With the use of this 
technology over the last couple of years, we have been able to 
reduce the number of distribution centers from 43 to 14, and we 
have been able to increase our customer ratings significantly. 
In fact, they continue to go up, and they are at an all-time 
high.
    With the use of this technology, we have been able to 
increase the number of stops per vehicle, per truck. We have 
been able to route these trucks more efficiently. We have been 
able to decrease the number of miles per stop, and, as I 
mentioned, we have been able to significantly increase our 
customer satisfaction. Where before we were delivering--at 
least we were trying to deliver--within a 4-hour window, we are 
now delivering 95 percent of the time within a 2-hour window in 
82 percent of the markets that we service. The fact that we 
were able to reduce our distribution centers from 43 to 14 
enabled us to save tens of millions of dollars. Of course, that 
obviously increased our profit picture. It also enabled us to 
pay a little more in taxes back to our Government.
    In addition to the application of increasing our 
performance in home delivery, we have also used the technology 
in our warehouse to improve the productivity of our warehouse. 
If you can imagine taking off the top of a warehouse and 
looking down from above, what you would see is not unlike the 
grids of a community, and we use the aisles as streets and the 
locations of inventory as addresses, and, again, we use the 
technology to increase our productivity of our picking in these 
warehouses. Sears is a large company. If we can increase the 
number of picks per person by one, we save $500,000 a year, and 
we have been able to increase the number of picks 
significantly, because we have been able to route the forklifts 
better in the warehouse. In our business, an empty forklift is 
bad business. The idea is to try to maximize the use of your 
forklifts, and with this technology we have been able to do 
that.
    I do feel a little humbled after listening to a number of 
the people here talking about some of the very significant uses 
of this technology in terms of applications to prevent teen 
pregnancy and improve the water and whatnot. In fact, all we 
were trying to do is get Mrs. Jones' refrigerator to her on 
time. [Laughter.]
    But it is a very significant technology, and we are very 
happy that we have found it, and, again, appreciate the 
opportunity to talk about it.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.131
    
    [GRAPHIC] [TIFF OMITTED] T3008.132
    
    [GRAPHIC] [TIFF OMITTED] T3008.133
    
    [GRAPHIC] [TIFF OMITTED] T3008.134
    
    [GRAPHIC] [TIFF OMITTED] T3008.135
    
    [GRAPHIC] [TIFF OMITTED] T3008.136
    
    Mr. Horn. Well, thank you. That 2 hours is impressive, I 
must say. I was wondering, had you put the Mayfair on top of 
the----
    Mr. Miller. The Maytag repairman? [Laughter.]
    Mr. Horn. Maytag, whatever it is.
    Mr. Miller. No, he really doesn't do a whole lot as the ad 
says.
    Mr. Horn. OK, we will give them equal time someday, too. 
[Laughter.]
    Go ahead, Mr. Cahan, the president of the Urban Logic, Inc. 
Tell us a little bit about that.
    Mr. Cahan. Sure. Urban Logic was started when I was living 
in a building in New York that was the subject of an explosion 
of a steam pipe in 1989. That steam pipe was wrapped in 220 
pounds of asbestos. It showered a historic neighborhood just 
north of Greenwich Village with that asbestos. As a result of 
that experience, I wondered, ``Well, who knows what is down 
underneath the city.'' I thought I would bring you this, the 
World's Fair 1939 edition of Fortune magazine. In it you will 
see an article describing ``Under The Asphalt of New York.'' If 
I could just read from that 1939 edition, it says, ``New York 
is a maze of pipes, conduits, tunnels, sub-basements, swamps, 
and vaults. The guts, nerves, and arteries of a great human 
organism for which there exists no map.'' It is still true.
    Mr. Horn. That is amazing. What is that copy worth in the 
rare book market? [Laughter.]
    Mr. Cahan. I will pass it around after the hearing.
    I thought I would highlight my testimony instead of read 
it, Mr. Chairman.
    First of all, you had a thought that it would be a good 
idea if Congress had their own geographer, and I was told 
yesterday at the Geodata Forum that in the 1830's and 1840's, 
it did and that his name was David Burr. I think the same 
function existed back then as you might be suggesting.
    Mr. Horn. Was that with the Library of Congress?
    Mr. Cahan. Yes. That was actually suggested to me by a 
cartographer of the Library.
    Second, although it doesn't, perhaps, in scale reflect what 
Tillamook County is investing, New York City, to my knowledge, 
is investing a minimum of $5 million for parcel maps. So, we 
are talking large sums of money that are being invested as a 
foundation for the future now. So, you must act now to 
capitalize on those investments. I would impress the urgency of 
that facet. And that $5 million doesn't include applications; 
it is just to capture the digital data.
    If I could turn to some recommendations. Certainly, the 
regional development of spatial data makes the most sense for 
local, regional, because with that high velocity of use, reuse 
and cleaning of this data--which is what you have heard in the 
prior panels--you are getting a lot of value added. It is the 
constant use of this data that creates its new value. We would 
recommend that since Federal agencies have mandates for data 
collection--you should think about the fact that you already 
have hundreds, probably thousands--we are trying to inventory 
them for you and staff--of data mandates--some of which can be 
performed using spatial data and are being performed using 
spatial data. So, we are talking about aligning investment 
patterns as much as new mandates. We are talking about how to 
satisfy your existing set of Federal requirements as a customer 
from locally-generated data.
    Five capacities, I would suggest, would help, and they 
would need national support: developing Internet portals for 
citizen participation, so they can truly gain access to these 
tools without having to go through the learning curve that we 
all had to go through; finance strategies such that Federal 
dollars are pooled--such as the C/FIP represents--so that you 
can actually see that 1 to 10 leverage; system quality 
standards and system quality strategies through the whole arena 
of development of this data and use of this data--public, 
private, and non-profit. A lot of the community service 
organizations use this data to treat and administer health and 
human services programs; procurement strategies at the local 
level that don't distinguish between buying a stapler and 
buying technology and working through those procurement 
channels.
    And then some legal strategies--Mr. Ayers talked about 
that; others have. We need to look at common privacy, 
copyright, liability, security. Again, if it helps the 
subcommittee, this is from the President's Commission on 
Crucial Infrastructure Protection--and now I think the Crucial 
Infrastructure Assurance Office of the President--and they have 
looked at the issue, not only of how to protect against misuse 
of this kind of information, they are also looking at how this 
information helps to contain and remediate other threats to our 
urban environment. That it is implicit in the responsibility we 
have for dealing with this technology.
    Finally, I would ask that we study the economics at work at 
play in this technology and the aligning of investment patterns 
that I have urged you to consider. Those economics are 
different in every State. Each State has a different freedom of 
information law; it has a different political climate for those 
economics and data recapture charges for data collection. You 
might want to come up with model licensing and model approaches 
that reflect your own policies here in Washington.
    Thank you.
    [The prepared statement of Mr. Cahan follows:]

    [GRAPHIC] [TIFF OMITTED] T3008.137
    
    [GRAPHIC] [TIFF OMITTED] T3008.138
    
    [GRAPHIC] [TIFF OMITTED] T3008.139
    
    [GRAPHIC] [TIFF OMITTED] T3008.140
    
    [GRAPHIC] [TIFF OMITTED] T3008.141
    
    [GRAPHIC] [TIFF OMITTED] T3008.142
    
    [GRAPHIC] [TIFF OMITTED] T3008.143
    
    [GRAPHIC] [TIFF OMITTED] T3008.144
    
    [GRAPHIC] [TIFF OMITTED] T3008.145
    
    [GRAPHIC] [TIFF OMITTED] T3008.146
    
    [GRAPHIC] [TIFF OMITTED] T3008.147
    
    [GRAPHIC] [TIFF OMITTED] T3008.148
    
    [GRAPHIC] [TIFF OMITTED] T3008.149
    
    [GRAPHIC] [TIFF OMITTED] T3008.150
    
    [GRAPHIC] [TIFF OMITTED] T3008.151
    
    [GRAPHIC] [TIFF OMITTED] T3008.152
    
    [GRAPHIC] [TIFF OMITTED] T3008.153
    
    [GRAPHIC] [TIFF OMITTED] T3008.154
    
    [GRAPHIC] [TIFF OMITTED] T3008.155
    
    [GRAPHIC] [TIFF OMITTED] T3008.156
    
    [GRAPHIC] [TIFF OMITTED] T3008.157
    
    [GRAPHIC] [TIFF OMITTED] T3008.158
    
    [GRAPHIC] [TIFF OMITTED] T3008.159
    
    [GRAPHIC] [TIFF OMITTED] T3008.160
    
    [GRAPHIC] [TIFF OMITTED] T3008.161
    
    [GRAPHIC] [TIFF OMITTED] T3008.162
    
    Mr. Horn. Thank you very much.
    Our last witness on this panel is Mr. Jack Pellicci, the 
vice president of Global Public Sector for Oracle, based in 
Reston, VA.
    Mr. Pellicci. Thank you, Mr. Chairman, Congressman 
Kanjorski, for this opportunity to share Oracle's views with 
you on this very important topic.
    GIS data, GS spatial data, and, as we call it, spatial 
data, must be readily available to citizens, to governments, 
industry, and academia in order for us to, at the national 
level, the local level, and globally contribute to economic 
growth, the overall competitiveness of the Nation, and then the 
quality of life in our communities.
    A little bit about Oracle--Oracle is the world's second 
largest software company. We are the largest data base company 
with about 45,000 employees in about 145 countries with over $9 
billion in revenues. Over 55 percent of the world's relational 
data is in Oracle data bases. We invest about $1 billion a year 
in R&D, and over the past several years, we have been investing 
significantly in managing spatial data seamlessly with other 
types of data.
    Now, it is estimated that 80 percent of the information in 
the world has a spatial component, and a critical success 
factor in managing the spatial component of that information is 
that it must be done the same way as the other data types, such 
as relational data, image, audio, and even video in order for 
it to be user-friendly, to be more easily accessible, and to be 
more cost-effective.
    We like to say our job is to ensure that spatial is not 
special. Data formatting standards are important but so are 
information management standards which allow the integration of 
that data with other data types for processing, manipulation, 
and distribution. Oracle has been a pioneer in the standards 
for relational data bases, and today we are supporting the 
development of interoperability standards in geospatial and GIS 
as part of the Open GIS Consortium, which is made up of both 
industry and Government representatives, and we are also active 
in a number of other forums which promote ease of access and 
ease of processing all types of data.
    Now, many of the initiatives you are being asked to support 
will improve the access to and the delivery of community 
services for citizens. What I like to call spatially enabled 
communities are critical to our national competitiveness, and 
Oracle strongly supports the adoption of the interagency 
proposal to advance the national spatial data infrastructure.
    Oracle believes that the Internet changes everything. We 
are in a new era with a new economy emerging quickly. Spatial 
data has to be available on the web and over the Internet. Much 
work is being done in this area today, and the web integration 
test bed at the Open GIS Consortium is putting a lot of 
attention on this aspect of providing access through a web 
browser. As we standardize the data, we must also extend the 
data architectures. It is not just about data formatting; it is 
not just about data standards; it is about the architectures 
that support the users, and that architecture must be a self-
service architecture.
    Over the last several years, I have been working to support 
as an advisor for the National Performance Review and the 
National Partnership on Reinventing Government, and I have told 
Vice President Gore, who we have worked with and talked to, 
that it can no longer be about service to the citizen; it is 
about service by the citizen. It is about empowering citizens 
to do it themselves. In this age of declining budgets, in this 
age of streamlining, when you have got people who want to do 
it, empower them to do it. And the new metric is now citizen or 
customer self-satisfaction, not just citizen satisfaction; 
grading ourselves on how well we allow citizens and customers 
to do it themselves. So, with the half-life of technology 
approaching 3 weeks and time being measured in Internet years, 
which are 3 months, hopefully, this committee will push for 
rapid adoption of the FGDC initiative.
    Thank you.
    Mr. Horn. Thank you very much.
    One of the things that we have heard today is many groups 
seem to be promoting the idea of making greater use of 
partnerships to work on common problems and issues. What will 
it take from your perspective, the perspective of everybody on 
this panel, to make such partnerships work between the public 
and the private sector? Mr. Dangermond, any thoughts on that?
    Mr. Dangermond. The first thing that occurs to me is that 
the partnership between the Federal Government and Sears is 
rather intriguing. It is an unconscious relationship. These 
tens of millions of dollars that Mr. Miller talked about saving 
a year result in actually tens of millions of dollars of new 
tax money coming back to the Federal Government to help pay for 
and subsidize the investments that they made in the development 
of the Street Centerline File for America, the first and, 
perhaps, best-known geographic infrastructure investment that 
we have made as a public investment. This is a partnership; it 
is a financial partnership. It is one that actually works. It 
is not one that is directed by Congress, but it is amazing, and 
it rides on the fundamental policy that Government data is free 
so that we don't look at the little economics of charging 
toward disks or simple copies of data but we look at the big 
economic implications of developing a spatially literate 
society that is economically more efficient and saves money and 
time. What Mr. Miller did not mention is that by saving 15 
percent of the traffic drive time, which was off the bottom 
line, he also cuts traffic in cities by 15 percent; he cuts 
economic expenditures by our society in energy by 15 percent; 
he also cuts air pollution by 15 percent, and so on. This kind 
of an intriguing connection of partnership, perhaps not what 
you asked for, Mr. Horn, but it is one that I really buy into 
that almost volunteering partnerships, there are countless 
numbers of them like this that have emerged.
    In a more proactive way, what can we actually--what can you 
actually do to direct partnerships? I like to use the metaphor 
of footprints. Footprints are very important, and when I talked 
about the idea of funding some small demonstration projects 
that show the value case or the benefit case as the Vice 
President is doing through this Federal and local government, 
and as you heard the previous panel talk about, I think these 
are extremely important, because if the value case is there, it 
will take off like fire, and, by the way, it is. It is 
happening in the public sector and also in the private sector 
where the--it is almost like a group of volunteers who have a 
common interest. So, you need to just catalyze it by throwing a 
few seeds out there, the true--what is this on the back of a 
rudder--Trimtab. Throw a little Trimtab and the rudder moves a 
big steamship moves. These Trimtabs of partnerships and 
demonstration projects have phenomenal interest.
    Mr. Horn. Mr. Miller.
    Mr. Miller. I never really thought that Sears Roebuck had a 
partnership with the Federal Government, but I suppose we do.
    Mr. Horn. We are your friendly Government. We are here to 
help.
    Mr. Miller. Yes, you are. I guess the only comment that I 
would have is that whatever the Federal Government has to do to 
continue to embrace this technology and support the development 
of it, work on developing standards with this technology and 
keeping the costs down. Obviously, Sears is a very large 
company, and we, perhaps, can afford to do some things that 
other companies cannot. I supposed if this technology was more 
expensive, a number of companies would not be able to utilize 
it; in fact, we may not even have elected to use it. So, 
anything that the Federal Government can do to keep the costs 
down would be something that we would certainly support.
    Mr. Horn. Mr. Cahan.
    Mr. Cahan. Mr. Chairman, you asked what makes partnerships 
work? And, if I could, I would refer you to some charts on 
pages 17, 18, and 19 of my written testimony. Basically, the 
first chart--if I can hold it up for you--I apologize for 
this--talks about the 17 flavors of data is takes to run the 
city of New York--based on a study the city started and we 
completed. Yet it would appear that the agencies--and this was 
30 city agencies and some utilities--go every day to 150 
different places to get the 17 different flavors of data it 
takes--data they need--data that is very embedded in the 
Framework that has been proposed by FGDC. You have got streets 
data and buildings data and services districts and people/
demographics data, ultimately.
    There is a curious thing about this chart. First, a third 
of this supply chart for data in New York comes from five key 
agencies--environmental, city planning, transportation, 
buildings, finance--the tax group, as citizens know--and then 
there is this very long tail, and that means that the tail says 
this is like ``data soup.'' It is like an herb that you have to 
throw into your data mix when you are trying to make sure you 
covered all your bases from liability or a policymaking point 
of view; that I have gone out and I have recaptured what has 
changed about these very small sets of data.
    And then we found that there are a couple of drivers: the 
data is not smart enough to ask for itself. Applications are 
driving, functions are driving this appetite for data, and the 
main function, it turned out, was to explain to somebody else, 
for you to explain to your constituents--a business to explain 
to you--what the context for those decisions that you are 
making--that they are making--is all about.
    So, I think if you consider our evidence from the New York 
study, you will realize that standards have a role as 
underwriting or investment criteria in aligning multi-sectoral 
investments in spatial data.
    Just one example that may crystalize for you why it matters 
in Washington if New York gets its GIS house in order or any 
other city. Assume that you send us some transportation money 
very often and that our subways are built with your money. A 
majority of the capital costs is from you. Well, 1 percent of 
those budgets goes to planning, and that planning is all about 
using GIS, and if we don't have the right data to do that plan, 
then the project is delayed. You can't put two people on the 
express and local track flagging down traffic the same day. So, 
then the cost spirals and the cost goes up, and they come back 
here to you, and, ultimately, some part of the cost for missing 
data or the poor data that didn't show up that day comes out of 
the Federal Treasury. I can't tell you how much, but it is 
implicit, and so you do have a great stake in using local data, 
both for the benefit of the local community as well as the 
fiscally responsible functions that I think you perform.
    Mr. Horn. Mr. Pellicci.
    Mr. Pellicci. Yes. Oracle's largest customer in the world 
is the U.S. Federal Government, and I would like to think that 
we do have a very strong strategic partnership, a public-
private partnership with the Federal Government, and I have 
been with Oracle 8 years and for 30 years before that, I was a 
senior leader in DOD, and from both sides, now, I have worked 
very hard at what is a very difficult thing and that is to make 
public-private partnerships work. They are like marriage; they 
are very tough. You have got to work at them continuously, and 
I would say that one of the largest factors is the overall 
element of trust, confidence that each element has in one 
another, a shared interest, the understanding of what is trying 
to be done, and there needs to be incentives for both sides, 
and, above all, there has to be metrics placed on these public-
private partnerships, so somebody is measuring them and there 
is feedback as to whether or not they are working.
    The most overused words in some of the vocabularies I see 
are ``strategic partnership,'' and they use if kind of 
nonchalantly, and it cannot be used nonchalantly, and the forum 
in which these partnerships occur are direct public-private 
partnerships like Oracle dealing with the Government or U.S. 
DOD or with IRS or whoever, but also there are other elements 
of partnership where we are dealing with NGO's, non-
governmental organizations, whether it is Oracle and counties 
and States working through NAACO or Oracle and Intergraph and 
other companies working through OGC, the Open GIS Consortium. 
So, in achieving the goals and objectives that we are trying to 
do here with the GIS and geospatial data, public-private 
partnerships are absolutely essential.
    Mr. Horn. In their testimony, the representative of the 
National Academy of Public Administration recommended a series 
of studies to be conducted to identify the best practices for 
effective data sharing, licensing, pricing relationships among 
public and private data producers. Now, do you agree that such 
an effort would be worthwhile? Or would--Mr. Pellicci, that be 
in line with what Oracle would be interested in?
    Mr. Pellicci. Yes, sir. I think best practices are 
certainly things that we are very familiar with. On a global 
basis, we try to find the best practices, whether it is in the 
GIS arena, geospatial arena, or any other data management arena 
and then share those best practices within the company to the 
benefit of our customers around the world. But I think best 
practices allow us to deliver better, faster, and cheaper and 
do it in a way that makes a lot of sense.
    Mr. Horn. In addition, the National Academy of Public 
Administration recommended that reconciling different laws, 
policies, and regulations might impede effective data sharing. 
Do you see this as necessary or is there a worry there in any 
way?
    Mr. Cahan. If I could respond, Mr. Chairman?
    Mr. Horn. Sure, Mr. Cahan.
    Mr. Cahan. Yes, in a study that we are finishing, that the 
FGDC was good enough to fund, we list some of those 
inconsistencies in the law, and there are different derivations 
of Federal activity, some of which are very good.
    Mr. Horn. Is this data sharing between Federal agencies?
    Mr. Cahan. You have got the Paperwork Reduction Act; you 
have the Unfunded Mandate Reform Act; you have Government 
Performance Review Act; you have Clinger-Cohen; you have all 
these acts. When you look at the ubiquity of GIS, you have a 
special challenge to channel all of that efficiency activity in 
the right way so that it can reinforce the building of data at 
the local level and the Federal agencies' ability to partner as 
real meaningful partners in that local activity. So, yes, it 
would help.
    Mr. Horn. Yes. I brought up the privacy question in another 
panel, and in going over to vote, two of our most senior 
statesmen around here--one Republican, one Democrat; their 
names will go nameless to protect the innocent or the guilty as 
the case may be--and they got on privacy, on another subject. 
Maybe this is privacy day on the Hill, I don't know, but they 
got onto that, and they were sort of outraged that data would 
be available to someone beyond, say, your house, and I 
mentioned what my colleague from Pennsylvania had mentioned on 
the sale of unemployment compensation data. So, I just wonder 
if you have any thoughts on the privacy thing?
    We have a bill up in the Senate today in markup which 
started out really in hospital privacy. This subcommittee has 
jurisdiction on the Government reform side, and we held 
extensive hearings, oh, 6 years ago--Mr. Condit's bill--and 
then we haven't really done much since, although we had Mr. 
Leahy before us, and he has a bill over there, and you have the 
Bennett bill and you a whole series of the Jeffords bill.
    So, privacy is something that, obviously, politicians get 
very exercised over, because the clientele gets very exercised 
over it, and we have had some horrible cases of people's files 
being gone into, mayors' files, Congress Members' files, 
Senators' files; it ends up in the newspaper. There is no 
privacy, apparently, for public officials, but you have got a 
disgruntled employee you fire in a doctor's office and they 
just--there is a xerox machine over the lunch hour, and you 
just get your file xeroxed and next you see it in the, sort of, 
Fat City Press or something or the Skinny City Press. But do 
you have any concerns as to where the line needs to be drawn on 
what types of data that goes beyond a point? Any thoughts on 
that?
    Mr. Cahan. I participated in the Governor's Task Force on 
GIS in New York, and this has come up in our legal subgroup.
    Mr. Horn. I am sorry, I missed that part. Speak into the 
microphone a little.
    Mr. Cahan. This issue of privacy has come up before the 
Legal Working Group in New York. There are some data 
stewardship principles, and I have heard them most eloquently 
announced by the Department of Health for the State of New York 
where they say, first, ``You don't know, but when your twin 
boys were born 6\1/2\ years ago, there was data captured you 
are not even aware of for epidemiological and other studies. We 
feel we are the stewards of that data.'' Well, that stewardship 
ethic and ethical practice is something that GIS, which was 
dealing with environmental and dealing with AM/FM--which is 
automated mapping to fix the sewers--there was no person down 
there that you really cared about. Now, we are talking about 
people's rights, and we are talking about massive abilities to 
blend data bases.
    Some of us attending the forum before this hearing were 
cautioned by the GIS Intertribal Council of Indians. They said 
the Tribes make no big decision without thinking about the 
decision's effect for seven generations. So, when you think 
about privacy, at least that is the hat I am going to wear from 
now on, and it is a good metaphor.
    Mr. Horn. I think there is some bureaucracy tribes in this 
town that unconsciously have had a seven generation bit of 
input versus output. [Laughter.]
    Mr. Miller.
    Mr. Cahan. The other thing I would add--I apologize----
    Mr. Horn. No, go ahead.
    Mr. Cahan [continuing]. Is sometimes privacy is a ruse. 
Sometimes privacy is an excuse for not sharing data, and that 
is why I say there has got to be some principles that can guide 
the decision.
    Mr. Horn. Yes. Mr. Miller.
    Mr. Miller. This issue of privacy has come up a number of 
times within Sears. Sears has been around for 113 years, and, 
as such, we have collected an awful lot of information in those 
years. And now that we are in the information age and many of 
our transactions are handled by credit cards, obviously, we 
have a good deal of information. We think we probably have one 
of the largest customer data bases in the world. One of the 
true assets that the company has is the trust of the American 
people. People trust Sears. They let us into their homes. We go 
into about 15 million American homes a year, and the fact that 
we have this information, we guard it religiously. We do not 
let anyone have access to it. In fact, as the CIO of the 
company, one of my main jobs is to protect that data, and I 
have to report to the board of directors on a regular basis 
about what we are doing to secure that data, so it is a very 
important issue, I think, obviously, to Sears and also to 
corporate America.
    Mr. Horn. Well said. Mr Dangermond.
    Mr. Dangermond. The only thought that comes up for me is 
this notion of blending. If you look at data in abstract, there 
are certain privacy issues. When we deal with GIS data, there 
is a unique ability to blend, what we call an overlay, 
different data sets from different sources. Take, for example, 
the census data which is purposely disguised from being in 
individual reporting to census tracks or census blocks. But 
when we overlay that data or blend it with other customer 
information which is freely available in the open market, you 
can begin to subdivide or intersect by map overlay and define 
further clusters of information about an individual such that 
you can target people and find out about their behavior or 
about their demographics or about their characteristics or 
their behavior, basically.
    This is something that the GIS community, frankly, is 
uncomfortable with and is not addressing effectively. I see no 
major research initiatives in our academic world that have 
taken this on as a subsection, and, again, it goes back to 
something that I would like to--I recognize this is not an 
Appropriation Committee but recognize as someone who oversees 
governing--highlight this, because it is not just privacy in 
abstract. We are talking about privacy uniquely with geographic 
information and Geographic Information Systems which can sort 
of untangle and further define and invade--if we want to use 
that bad word.
    Mr. Horn. In the case that was mentioned, one example where 
you had children that were adopted, you had some very difficult 
competing values there. Friends of mine have been in that 
situation where the parents were not told what the real medical 
health condition was of these children. They could have been 
much more helpful to them if they knew that, but the welfare 
bureaucracy, which I guess knows no bounds in terms of 
sometimes just sitting on things, didn't use common sense. So, 
the result was they didn't know what was happening when certain 
behavior appeared. Was it environmental? Or whatever was it? 
And those are the tough questions. I think, in this day and 
age, the parents die and the adoptive family dies, and the 
children want to know, ``Well, who was our real mother and 
father?'' And those get to be very tough questions, and I know 
there is a lot of State law that you probably have to deal with 
in one way or the other. Mr. Cahan, do you have any thoughts on 
that question in particular?
    Mr. Cahan. Only having friends in the same situation on 
both sides of that and internationally on both sides of that. I 
think it comes down to--I analogize it to negligence and 
prudent man and those kinds of principles. Mr. Chairman, we 
don't have a body of law, as Mr. Dangermond said, that tells us 
what we need to know for GIS. It tells us for other kinds of 
data but not for GIS. It is this recombinant, this ability to 
recombine data sets that have been purposely for the privacy 
purposes excised of their identifying characteristics that we 
responsibly say to you, ``Yes, we are concerned that the 
recombining and the automated recombining can undo whatever 
privacy locks you thought you had built in to the system, and 
we need some principles.''
    Mr. Horn. Yes, that is a good point.
    The gentleman from Pennsylvania is free to begin and end 
the questioning.
    Mr. Kanjorski. I will start off with Mr. Dangermond, 
because you have been in this area probably as long as anyone 
else. If we do nothing from the standpoint of the Federal 
Government and the Congress, what is your projection 10 or 20 
years from now where this technology will be? Then, on the 
other hand, if we have an ideal partnership and respond to this 
technology every way we can to facilitate, what would the 
difference be in a 10 or 20-year period?
    Mr. Dangermond. Well, if you ask me to look 20 years out, I 
have a particular vision, and, for me, the vision is 
inevitable, whether there is close cooperation or not, in our 
minds at this point. The vision is basically one of a society 
that is based on more geographic and spatial literacy; one that 
is able to look into these vast data bases which will become 
basically the automation of all movement and all reality, and 
those applications that dip into that will serve kids in school 
to learn about and discover their world. It will serve us in 
improving the way we govern; it will improve coordinated 
workflow, allow us to do more productive agriculture, more 
efficient business; the list is countless. It will also be a 
data base which people look into for consumer applications at 
the individual level that make their lives better--finding 
places to work; finding safe places to live; avoiding 
environmental problems in their own life, because they will 
have the knowledge and the information to guide them, and, 
obviously, privacy must be acknowledged as an issue.
    Whether we do this now or whether we do this later is 
simply an economic issue from my perspective. We can start to 
coordinate more effectively now, and FGDC has made amazing 
contributions in that area. I would have not guessed that they 
could have accomplished as much as they have in this decade a 
decade ago, but they have done it, and it is a process, not an 
event. So, for this, I would like to acknowledge all of those 
people that have worked hard in this but also point out that 
there is a huge gap of work yet to be done in two fields. The 
first is, our national mapping efforts as well as State and 
local map and silos. Soil people map soils independent of the 
geologists' topic who map geology independent in some respects 
of the water people who map water independent of people who map 
roads. Actually, roads are mapped at--roads in this country are 
mapped maybe four or five times--the feds, the States, the 
local governments, the counties, and the cities--and, actually, 
they are all the same road. So, when we overlay these and 
combine them in various ways, which GIS is a beautiful tool to 
do, we get this whole mess, and it is not the interoperable, 
technical standards that aren't working; it is our content 
standards and organizational issues that sort out, ``Let us map 
the road once and here is the common standard for it, and, by 
the way, it is not a feature in isolation. It is also a feature 
which is related to other features.'' Congressman Horn, soils 
have something to do with geology, morphed out of it. It has 
something to do with vegetation which grows out of it, and this 
country, one of the concerns that I have is at the Federal 
level we map all these phenomena separately, because we 
administrate budgets separately, so some people map vegetation 
independent of soils yet we know that they are co-related and 
similarly with geology and similarly with all of it.
    So, with the good work of the framework studies that our 
mapping committees and so forth have come forth with, we have 
got better clarity on what the features are that we should 
have, and those are good standard efforts. But what still 
troubles me is that we will then all go out and map 
independently rather than map in an integrated way.
    Our colleagues in China don't map independently; they map 
holistically. They have a different integrated mapping approach 
the way they map at the Federal level and similarly in 
Australia and Holland and a number of Latin American countries. 
They map using integrated techniques, and this is something I 
think your committee should probably look at. The idea that the 
NAPA study came out with is the bringing together, as the 
Secretary mentioned, of the geodetic mapping, but that is only 
the base and the beginning.
    I think we need to really rethink the way American maps map 
its reality and does it holistically at the Federal level so 
that we look at the systems that we are mapping, not the parts, 
and we do that in a different organizational framework, and, 
similarly, the relationship between mapping at the Federal 
level and the State level, we have parametricized this rather 
than approaching it as an integrated approach. And, as a 
result, our approach to land management and open space and 
integrated thinking and planning and land management suffers. 
In fact, one of the reasons why GIS even came out was to try to 
bring these data sets together rather than approaching it 
holistically.
    We see this sort of in the popular press and in the popular 
politics with people saying we should have water management. We 
should approach things on a place-based basis, which brings it 
all together instead of the bits and governing and so on. So, I 
think I am on to something with this notion of rethinking the 
way that we actually begin to measure all of it as an 
integrated whole.
    Mr. Horn. Yes. I would like you to, if I might, just ask a 
10-second question here, but I would like to hear more with a 
few examples as to the Australians and the Chinese versus us, 
and I completely understand what you are saying on the 
different bureaucracies having used the map as a way to meet 
their goals----
    Mr. Dangermond. Sectorial goals.
    Mr. Horn. Yes, and that budget--I am thinking of soil 
conservation; I grew up on a ranch, and you go into Hollister, 
CA, the County Seat, and there are the files and out come the 
photographs, and they can sort of make decisions, as they sit 
around the table, do they give you a loan or don't they? So, 
that is one use of photography.
    Mr. Dangermond. Well, the photo is one of the bases for the 
compilation of the soil map, and the investment of soil mapping 
in this country was largely done to help the farmer, the Farm 
Service, and so on, and then we discovered that we could 
actually predict other things from it especially if we 
automated the maps. And in something like doing suitability 
mapping for a new town or for urban development, the concept is 
we really want to take soils as a factor and all of its 
predictive capabilities and overlay it with geology and slope. 
Say, ``these areas we shouldn't build on, and these areas, we 
should.'' It is a multi-factor analysis, and, unfortunately, 
when we do that overlay--if you overlaid plastic maps, you 
might just imagine it in your mind--the lines which define a 
geological separation between two geologic type should actually 
be the same lines that are associated with the definitions of 
soils, which exhibit the characteristics of their original 
material, but they are not, because these different phenomena 
are mapped at different scales, very different scales, and they 
are mapped with, in one case, crayolas; in the other case, high 
precision pencils, and they are mapped with different standards 
of resolution and accuracy. So, the problem for land managers 
in the Forest Service or in BLM or other local and State 
agencies who use this data is to sort of homogenize all of 
these data sets that have been stovepipe collected at different 
times, at different scales, with different standards, and it is 
a mess.
    From a science standpoint, it is even a bigger mess as we 
have homogenized our reality in these little polygon areas 
function that if you overlay them all together and you add 
their characteristics, you can actually derive predictable 
results. Some of the science suggests that that isn't so; that 
you are making a mess out of this parametric approach for 
mapping, and if mapping is the foundation for creating the 
future, which I believe it is--mapped information and 
geographic information--and if we assume that its 
homogenization and coming together provides us a foundation for 
decisionmaking, which I think we have heard plenty of testimony 
that it is, then we had better get the fundamental measurement 
methodologies integrated in the first place, not just automate 
the stovepipes. We need to really rethink that. Sorry, 
Congressman.
    Mr. Kanjorski. Well, do you see an effect on the future as 
you look out 10 or 20 years?
    Mr. Dangermond. What I guess I wanted to say--excuse me, I 
didn't conclude this--is, ultimately, this is going to be 
figured out and figured out in a variety of ways. We could do 
this more deliberately if we just realized it and got real with 
respect to the data and its quality now rather than sort of 
mushing around about it; addressed it with the right Science 
Committee that would really bring it together and demonstrate 
what I am talking about.
    What is happening, actually, in the GIS community is it is 
really fantastic. This technology is fantastic. I have lived it 
for 35 years. I love it. I love this technology. What is 
happening, however, is that the popularity of it and its 
demonstrated effectiveness and results are outstripping some of 
the science understanding of the fundamental information 
underneath it. I called before for more funding in the academic 
area to understand GI and how it ought to be integrated and 
work with it. As I mentioned before, we are throwing a pittance 
of $1 million a year, $1.5 million a year, maybe $2 million or 
$3 million, if I really stretch it with NEMA and the other--
into the academic funding.
    I am not an academic, so I feel comfortable I can speak on 
this matter that we throw hundreds of millions to more 
fundamental work in various areas. This is an area that, if it 
is indeed the foundation for decision support for creating the 
future, we really believe that, and I do, then what the hell 
are we doing not investing like crazy in this technology and 
the information sets that are associated with it?
    Mr. Kanjorski. You are indicating there an academic 
investment?
    Mr. Dangermond. I am asking that one of the pieces that is 
troubling me, at least, is that we are not funding academic 
research into the GI and GIS foundations. We are doing it at a 
pittance level.
    So, back to your question about the future: How is the 
future going to turn out? We can either pay now to do that 
fundamental work and then look at remodernizing and integrating 
some of our mapping programs now or we will do it later, and 
then we will pay by redoing all of our mapping so that it works 
in an integrated mode. So, should we do it now or should we do 
it later? If we do it later, we are going to have to redo it. 
We are going to have to rebuild these data sets, and it will be 
troublesome. I think that is----
    Mr. Kanjorski. So, potentially, we are looking at a problem 
that left alone and not addressed could be expensive.
    Mr. Dangermond. Yes, right now, we are spending billions--
you are spending billions at the Federal level in automating 
data, in parametrically defined data sets that don't actually 
work very well together, and we are talking about how you make 
them interoperable at the technical level as if that would 
really create some impact on the integration of science and 
geography. It is a scary thought, and we sort of breeze over 
that as a community--my colleagues and I; I am guilty of it, as 
well--but this is actually the thing that troubles me most.
    Mr. Kanjorski. So, we have a Y2K problem that----
    Mr. Dangermond. We have a Y2K problem that is not as 
serious in terms of dramatic an event at 2000. It is more of a 
process of further commitment into these stovepipe systems 
without the integrated thinking and the mapping area. This is 
not about technology; it is about the way we organize to 
collect our measurements of reality.
    Mr. Horn. If the gentleman would yield a minute, I am 
curious, are there any experiments going on in the Federal 
Government that brings people from different bureaucracies that 
have been doing things different ways together? Has any of that 
occurred on a pilot project basis without asking us for money?
    Mr. Dangermond. There is lots of experimentation. Actually, 
the Forest Service is a good example.
    Mr. Horn. What have we learned from that?
    Mr. Dangermond. We have learned that in order to build 
integrated mapping to do range management in the Forest 
Service, what we do is take all the parametric maps from 
different agencies, and then we actually spend a lot of time 
reworking the data, so we can actually use it for 
decisionmaking in a real world. And, so there is lots of 
evidence to suggest that this chaos that we are sort of 
cruising over is actually there, and the evidence suggests that 
you spend a lot of money rebuilding your data sets when you 
actually do something real with respect to decisionmaking on 
geography. And that is also happening in the local governments. 
They will often get Federal data sets and then spend a whole 
bunch of time trying to standardize it to make it work. I am 
getting down to the dirt and technical aspects of this, but I 
think it is actually important that you understand this and 
that we acknowledge it as a problem so we can actually work on 
it. To be able to solve that problem, it starts with 
fundamental research and prototyping, but we do have lots of 
evidence that the problem recurs in most people who are trying 
to bring the data sets together.
    Do you understand what I am talking about?
    Mr. Kanjorski. Yes, I understand. You are saying rather 
than starting with a diseased plant, cure the disease and start 
with a good plant.
    Mr. Dangermond. Right. It will take a little time and some 
major pain and some downhyping of it all working out.
    Mr. Kanjorski. Are you suggesting that we need sort of a 
Federal convention on mapping or we just do not have the 
academic backgrounds to begin to determine what maps should be 
used, and we should go back to the fundamental academic world 
and ask them to catch up to speed, so then we could have a 
convention?
    Mr. Dangermond. If you ask the vegetation people about 
their mapping, they will think it is pretty damn good, and we 
are making better investments and evolving that methodology 
very well; same with the geologists and the soil people. What I 
guess I am pointing out is that we have a flawed way in the way 
that the Federal Government approaches mapping, which is, I 
would call it, parametric mapping versus integrated mapping.
    There is some controversy in this in the scientific 
community, and there is certainly a lot of controversy in the 
agencies about ``Well, I know how to map soils. I have my 
mission, which is agriculture. I know how to make soils and 
never mind the fact that soils are best conceived in a holistic 
way.'' So, there is some controversy about that.
    You are asking me what to do? The first thing that we need 
to do is actually hold a convening session which reveals this 
problem that is underpinning a lot of the hype of GIS and its 
application that drill into it. There have been national 
committees on mapping that have gone on for years, but it is 
all about getting clear on the features that go on maps and 
then separately mapping these and not doing as much 
coordination as I would like.
    I am absolutely sure that I am exaggerating the point to 
make a point. I will bet there are many fine efforts in the map 
homogenization and coordination going on. Nevertheless, this is 
a little problem that is there that is going to be an obstacle 
for us to create this future I was suggesting is going to 
happen in 20 years. So, it might as well come out now; I have 
done it. Excuse me. My colleagues--some of them agree and don't 
agree.
    Mr. Kanjorski. Mr. Miller, it is interesting that you 
testified about your contribution to Sears & Roebuck and the 
amount of moneys you were able to save reducing delivery 
windows to 2-hours and mapping warehouse worker movement. I see 
that incentive there for the private sector, because there is a 
response back to the shareholder--it flows out to management 
and then to the shareholder.
    A problem in Government, I look at this tool as probably 
our greatest opportunity for increasing productivity in the 
public sector, and, actually, I want to put in the record and 
call the chairman's interest, because it raises the question of 
winners and losers. As this technology gets applied in the 
private sector, you are using less gasoline, less tires, et 
cetera, but you are paying for those tires, and you are making 
the decision you want to do those things. In the governmental 
side, I often find that there are interest groups that even 
when confronted with logic and efficiency, look at it as a 
threat to their own well-being. An example would be the control 
at one time of the airlines. The Postal Service helped 
subsidize the activity of airplanes, private airlines.
    Not too long ago--about 6 years ago--a very bright colonel, 
full colonel from the Pentagon, called me up and came over and 
met with me, and he wanted to indicate to me that he could save 
anywhere from $200 million to $400 million a year immediately 
for the U.S. Government, and so he came by with his computer, 
and it wasn't too dissimilar to what I see in GIS sometimes in 
that he had structured the military airlines, the American 
Military Airline Club--it is the largest airline in the world--
that we could probably transport 75 to 80 percent of Government 
civil employees if we just coordinated their schedule with the 
military airline schedule on drop-off points. There is 
something like 1,400 planes a day in the sky that were 
federally owned, paid for, and were going there regardless. 
Rather than putting someone on a commercial flight from 
Washington to L.A., you could put them on a military flight and 
get them there and save all of the money. But it was 
interesting. The pressure that was brought on him and that 
whole program was from the private sector. They said, ``No, 
that is our passenger; you have to pay for him.''
    So, at that time, there wasn't the drive, but now, as I 
look around and I see the failure of having passengers stopped 
at some of our major airports on the east coast and the west 
coast, maybe we will go back and reinvestigate the possibility 
of bringing this type of efficiency to Government. But that is 
an example, I think, of--your example in private industry, the 
example that colonel brought to me, and so many areas, whether 
on a local governmental level, State, or Federal, that for the 
first time in our economy we have a tool available for 
efficiency and increase in productivity; not probably as 
gigantic as it will be in some private matters, but certainly 
far more than we have ever experienced in recent times in 
Government, and I would think that is why we probably should 
have bipartisanship on this, because, to my knowledge, there is 
no one, whether they are on one side of the aisle or the other, 
who is against efficiency and effectiveness, saving money, and 
getting the job done more effectively, and, clearly, we all 
represent the same constituents out there, and that is why I 
was so pleased about having this hearing.
    I am sure my friend, the chairman, is very much aware of 
the changes to GIS, but I think he will agree with me that not 
many of our colleagues are, and I hope that the hearing we have 
had today will be able to draw this out, and I know we have had 
the experts, this panel of senior executives, Mr. Chairman. So, 
the fact that they sat here all afternoon and gave of their 
time to this and listening to the broad perspective, I think it 
has been certainly enlightening to me. I hope it has been for 
you.
    Mr. Horn. Absolutely.
    Mr. Kanjorski. This transcript may enlighten our other 
colleagues and maybe we can move the Congress to get something 
done in a bipartisan way.
    Mr. Horn. Well, this is a small building block, but I think 
it has been a long step, and I particularly want to visit that 
Reston facility that was mentioned by some of you. So, if you 
could give me that information, I would like to go out there 
with any members that Mr. Kanjorski and I can find within the 
building and maybe go out on a Friday afternoon or a Friday 
morning when we are not doing much. But I would like to see 
what is happening there.
    So, do you have any more questions?
    Mr. Kanjorski. No.
    Mr. Horn. Well, I think you ended this hearing on a good 
note, and we do respect and thank you for the talent that you 
bring to this problem, and I know there is a lot of interested 
people out there. Usually, when the cabinet officer is here, 
the place is full. As soon as the cabinet officer leaves, 
everybody else leaves, and there is 10 faithful souls or 
something. Well, you have had about 50 to 150 souls today.
    So, I know there is a lot of talent out there, and all I 
can say if there are things you would have liked to say, just 
write me, care of this subcommittee: chairman of the Government 
Management, Information, and Technology Subcommittee, room 
2331, Rayburn House Office Building. We will turn it over to 
staff to integrate it in the report, and we welcome any ideas, 
and I thank you again for all of you that have participated and 
those of you that have sat nicely and we are sorry that our 
colleagues are in the Defense authorization floor today. That 
is what we are missing on both sides of the aisle.
    So, thank you again, and, with that, this hearing is 
adjourned. Oh, I do have the staff list here somewhere, so let 
me just say Russell George, staff director, chief counsel--
don't know if he is here--Matthew Ebert, to my left, your 
right, is the policy advisor on this hearing; Bonnie Heald is 
seated back there, director of communications; Grant Newman, 
staff assistant; Paul Wicker, intern; Justin Schlueter, intern, 
and for the minority, Faith Weiss, minority counsel; Earley 
Green, minority staff assistant, and we had more than one court 
reporter, I believe, didn't we? Oh, just Ron Claxton. Well, you 
are a brave soul, and you ought to get hazard pay for something 
like that.
    But, with that, we are adjourned.
    [Whereupon, at 4:36 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3008.163

[GRAPHIC] [TIFF OMITTED] T3008.164

[GRAPHIC] [TIFF OMITTED] T3008.165

[GRAPHIC] [TIFF OMITTED] T3008.166

[GRAPHIC] [TIFF OMITTED] T3008.167

[GRAPHIC] [TIFF OMITTED] T3008.168

[GRAPHIC] [TIFF OMITTED] T3008.169

[GRAPHIC] [TIFF OMITTED] T3008.170

[GRAPHIC] [TIFF OMITTED] T3008.171

[GRAPHIC] [TIFF OMITTED] T3008.172

[GRAPHIC] [TIFF OMITTED] T3008.173

[GRAPHIC] [TIFF OMITTED] T3008.174

[GRAPHIC] [TIFF OMITTED] T3008.175

[GRAPHIC] [TIFF OMITTED] T3008.176

[GRAPHIC] [TIFF OMITTED] T3008.177

[GRAPHIC] [TIFF OMITTED] T3008.178

[GRAPHIC] [TIFF OMITTED] T3008.179

[GRAPHIC] [TIFF OMITTED] T3008.180

[GRAPHIC] [TIFF OMITTED] T3008.181

[GRAPHIC] [TIFF OMITTED] T3008.182

[GRAPHIC] [TIFF OMITTED] T3008.183

[GRAPHIC] [TIFF OMITTED] T3008.184

[GRAPHIC] [TIFF OMITTED] T3008.185

[GRAPHIC] [TIFF OMITTED] T3008.186

[GRAPHIC] [TIFF OMITTED] T3008.187

[GRAPHIC] [TIFF OMITTED] T3008.188

[GRAPHIC] [TIFF OMITTED] T3008.189

[GRAPHIC] [TIFF OMITTED] T3008.190

[GRAPHIC] [TIFF OMITTED] T3008.191

[GRAPHIC] [TIFF OMITTED] T3008.192

[GRAPHIC] [TIFF OMITTED] T3008.193

[GRAPHIC] [TIFF OMITTED] T3008.194

[GRAPHIC] [TIFF OMITTED] T3008.195

                                   <all>


</pre></body></html>
